<html>
<title> - UNDERSTANDING CHINA'S CRACKDOWN ON RIGHTS ADVOCATES: PERSONAL ACCOUNTS AND PERSPECTIVES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
UNDERSTANDING CHINA'S CRACKDOWN ON RIGHTS ADVOCATES: PERSONAL ACCOUNTS 
                            AND PERSPECTIVES

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-705                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRIS SMITH, New Jersey, 
CARL LEVIN, Michigan                 Cochairman
DIANNE FEINSTEIN, California         FRANK WOLF, Virginia
JEFF MERKLEY, Oregon                 ROBERT PITTENGER, North Carolina
                                     MARK MEADOWS, North Carolina
                                     TIM WALZ, Minnesota

                     EXECUTIVE BRANCH COMMISSIONERS

              NISHA DESAI BISWAL, U.S. Department of State

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Sherrod Brown, a U.S. Senator from 
  Ohio; Chairman, Congressional-Executive Commission on China....     1
Pittenger, Hon. Robert, a U.S. Representative from North 
  Carolina; Member, Congressional-Executive Commission on China..     2
Ilham, Jewher, Daughter of detained Uyghur Scholar Ilham Tohti...     3
Teng Biao, Human Rights Lawyer and Scholar.......................     5
Clarke, Donald, David A. Weaver Research Professor of Law, George 
  Washington University School of Law............................     6
Richardson, Sophie, China Director, Human Rights Watch...........     8

                                APPENDIX
                          Prepared Statements

Ilham, Jewher....................................................    24
Teng Biao........................................................    25
Clarke, Donald...................................................    27
Richardson, Sophie...............................................    30

Brown, Hon. Sherrod..............................................    35
Smith, Christopher...............................................    36


UNDERSTANDING CHINA'S CRACKDOWN ON RIGHTS ADVOCATES: PERSONAL ACCOUNTS 
                            AND PERSPECTIVES

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3:38 p.m., 
in room 418 Russell Senate Office Building, Senator Sherrod 
Brown, Chairman, presiding.
    Present: Representatives Robert Pittenger and Tim Walz.

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
  OHIO; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Brown. Thank you all for joining us. To all four 
witnesses, thank you especially for speaking out, and for your 
courage.
    On February 21, 2014, nine members of this Commission, 
Democrats and Republicans from both the House and the Senate--
and you will see that generally in the work of this Commission. 
It is bicameral, it is bipartisan. There is perhaps more 
agreement on this Commission than almost any committee in the 
Congress.
    We sent a letter to Chinese President Xi Jinping urging him 
to end the crackdown on rights advocates in China. Among the 
cases we highlighted was that of Uyghur scholar Ilham Tohti, 
and his daughter joins us today. Mr. Tohti is a thoughtful and 
peaceful advocate of the rights of the Uyghur minority who has 
sought to build bridges among ethnic groups. We are grateful 
that his daughter joined us today. Thank you again, Ms. Ilham.
    We are grateful that the prominent human rights lawyer Teng 
Biao could join us via Skype. Teng Biao has provided legal 
assistance in human rights cases at great risk to himself. Our 
staff has made every effort to ensure the security of this feed 
and we hope there will be no disruption.
    We are grateful, too, that Mr. Clarke and Ms. Richardson 
could take time out of their busy schedules to be here. Ms. 
Richardson is a respected expert on human rights. Mr. Clarke 
has done considerable research into understanding China's legal 
reform and rule-of-law development.
    The hearing comes at an important time. President Xi 
Jinping has been in power more than a year. As we'll learn more 
today, he has presided over a worrisome crackdown that is 
estimated to have swept away more than 150 activists and 
lawyers and journalists and intellectuals.
    President Xi spoke of respecting the constitution and rule 
of law when he entered office. He has talked tough on 
corruption. His government has pledged to protect ethnic 
minorities. But when his own citizens, including the father of 
our witness today, sought to hold the Chinese Government 
accountable they were punished.
    They include the legal advocate Xu Zhiyong, who has sought 
to promote educational opportunity and transparency of 
officials' finances. He is now serving a four-year sentence for 
``disturbing social order.'' They include the activist Cao 
Shunli, who sought to participate in the drafting of China's 
human rights report to be presented to the UN Human Rights 
Council. She died last month after being detained and denied 
medical treatment.
    They include the four lawyers trying to defend Falun Gong 
members held in illegal detention centers known as black jails. 
The lawyers have been detained and beaten. During President 
Xi's first year in office, we have learned that independent 
voices, even those that echo the government's concerns and try 
to uphold the law, will not be tolerated.
    These actions are not befitting a country that every day 
claims to want, and is seeking in fact, greater international 
legitimacy. We urge the government of the People's Republic of 
China to respect the fundamental rights of every one of its 
citizens to freedom of expression and press and association and 
religion.
    We do so not simply because this is China's obligation 
under international law, but because China will be better and 
stronger if it gives citizens a voice and a stake in the 
system.
    By listening to and respecting the rights of citizens like 
Ilham Tohti and Xu Zhiyong, China can involve all its people in 
dealing with the most important problems of the day, 
corruption, ethnic tensions, and income equality. But first, 
President Xi and China's leaders must view these citizens not 
as threats, but as people who want what is best for their 
country.
    I look forward to hearing the witnesses.
    Congressman Pittenger, your comments?
    [The prepared statement of Senator Brown appears in the 
appendix.]

STATEMENT OF HON. ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM 
 NORTH CAROLINA; MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Pittenger. Thank you, Chairman Brown, for 
calling this important hearing and for allowing me to make an 
opening statement.
    First, I want to thank the witnesses who are appearing 
before us today, especially Ms. Ilham, who is showing extreme 
courage coming before us to tell her father's story.
    The First Amendment of the U.S. Constitution affords 
American citizens the rights to freedom of speech, freedom of 
the press, and freedom to peacefully assemble. These rights are 
the foundation of what have made our democracy work. These 
rights are what have allowed for America to continually grow 
and advance. America must continue to advocate for these rights 
to be afforded to every person around the world.
    Last year, this Commission heard from young women whose 
fathers had been arrested as political prisoners simply for 
exercising these rights. Today, we will hear from another young 
woman who has seen firsthand the repressive tactics of the 
Chinese Government.
    Our job as Commissioners, as Members of Congress, as those 
who hold the lamp of liberty, must be to continue to bring to 
light these stories and call for China to end its continued 
persecution of those law-abiding citizens simply for speaking 
out on behalf of the oppressed.
    Thank you, Mr. Chairman. I look forward to hearing the 
testimony of the witnesses.
    Chairman Brown. Thank you, Mr. Pittenger, for joining us.
    Mr. Walz, thank you for joining us today and your 
dedication to these causes and these policies that we work on 
in this Commission, and your involvement in the Commission.
    It is my pleasure to introduce the three witnesses. We will 
hear from each of them, starting with Ms. Ilham. She is the 
daughter of detained Uyghur scholar Ilham Tohti. Mr. Tohti is a 
peaceful advocate for the Uyghur community who was arrested in 
February on charges of separatism. He is a respected economist 
and writer based at Minzu University in Beijing who was 
supposed to take up a visiting scholar position at Indiana 
University last fall. His daughter, Jewher, is now studying 
English at Indiana University. Welcome. Thank you for being 
here.
    Dr. Teng Biao is a human rights lawyer and scholar. He is a 
lecturer at China University of Political Science and Law in 
Beijing. He is now a visiting scholar at the Chinese University 
of Hong Kong. He has provided counsel on numerous human rights 
cases and is a co-initiator of the New Citizens' Movement. He 
is joining us via Skype. Dr. Teng Biao, welcome. Thank you for 
being here. Apparently it's working.
    Donald Clarke is the David Weaver Research Professor of Law 
at George Washington University Law School. He specializes in 
modern Chinese law, focusing on corporate governance, Chinese 
legal institutions, and the legal issues presented by China's 
economic reforms.
    Dr. Sophie Richardson is the China Director of Human Rights 
Watch. She is the author of numerous articles on domestic 
Chinese political reform, democratization, and human rights in 
China, and other countries in Asia. Ms. Richardson, welcome.
    Ms. Ilham, welcome. If you would begin your testimony. 
Thank you.

STATEMENT OF JEWHER ILHAM, DAUGHTER OF DETAINED UYGHUR SCHOLAR 
                          ILHAM TOHTI

    Ms. Ilham. Hello. My name is Jewher Ilham and I am a 
student at Indiana University. I'm grateful for this 
opportunity to appear here and speak about the suppression of 
dissent in the People's Republic of China as I have personally 
experienced it.
    Over a year ago, I set out to accompany my father, Ilham 
Tohti, to the United States, where he was to be a visiting 
scholar at Indiana University. I was to stay for a month. On 
February 2, 2013, preparing to depart China, my father and I 
were detained. Due to a police error, I was allowed to leave. 
My father was held, beaten, and forbidden from leaving China, 
all for writing about abuses of civil and religious rights. My 
father, Ilham Tohti, is a well-known economist and writer based 
at Central Minzu University in Beijing and an advocate for the 
human rights of the Uyghur people.
    I'm not an academic expert on Xinjiang nor on China's 
politics, but I have observed the impact of repressive Chinese 
policies on my own family. 2013 was not the first time my 
father had been detained and his family harassed. After serious 
clashes in Xinjiang in 2009 left many people dead and a 
significant number ``disappeared,'' my father worked to get 
their names and cast a spotlight on China's repression of 
Uyghur grievances.
    As a result, my family was removed from their residence and 
moved around for one month. Our phones and computers were 
confiscated. In April 2011, my father and grandmother were 
forcibly sent to Guangzhou for a week.
    In December 2011, I returned home from school one day to 
find an empty home. My stepmother, my father, and my brothers 
had been sent to Hainan for two weeks. In 2012, the authorities 
blocked my brother from registering for school or having a 
passport. The university also canceled my father's class for 
one semester. His Web site was sometimes shut down.
    In the fall of 2013, state security personnel rammed my 
father's car and told him they would kill everyone in our 
family. But the worst happened after January 15 of this year. A 
large group of police took my father away without any due 
process. We had no information about him. His lawyer was denied 
contact with him. On January 25, the government announced 
accusations against him, including inciting separatism and 
hatred of the country, and praising terrorists.
    Anyone who knows my father realizes how false these charges 
are. My father never speaks about separatism. By arresting my 
father, China has driven Uyghurs to understand that their 
justified grievances cannot get any sort of hearing. Today, my 
father is in the Urumchi Municipal Prison, but no one can visit 
him.
    The Chinese state often metes out collective punishment to 
a prisoner's family. My stepmother has no access to family 
funds in my father's bank account. She and my young brothers 
are monitored 24 hours a day. Police sleep outside their door 
at night and keep watch there during the day.
    Phone calls to my stepmother are monitored, making it 
difficult for her to communicate with me. She may lose her 
employment due to my father's political imprisonment. My oldest 
brother has become withdrawn and introverted. Having witnessed 
our father being taken away, he now has nightmares.
    Finally, there are some students of my father who have been 
arrested and imprisoned too, with very little known as to their 
whereabouts. China has imprisoned a dissident intellectual 
whose sole crime was advocating human rights and equitable 
treatment for the Uyghur people.
    I am heartened that the Congressional-Executive Commission 
on China has taken an interest in my father's case and is 
seeking to learn more about the facts of his imprisonment. 
Thank you.
    Chairman Brown. Thank you very much, Ms. Ilham. We really 
do appreciate your comments and your joining us.
    Dr. Teng Biao will join us via Skype from Hong Kong. Dr. 
Teng Biao, welcome.
    [The prepared statement of Ms. Ilham appears in the 
appendix.]

 STATEMENT OF TENG BIAO, HUMAN RIGHTS LAWYER AND SCHOLAR (via 
                             Skype)

    Mr. Teng. Thank you. Just before the First Lady Michelle 
Obama gave a talk at the Peking University, I tweeted to draw 
her attention to the plight of two remarkable Peking University 
alumni--Cao Shunli and Xu Zhiyong. For the past 10 years, Dr. 
Xu Zhiyong has become one of the most prominent figures in the 
human rights movement.
    The last time I was in contact with him was a few days 
before he was arrested. He sent a record of his conversation 
with the secret police. The government gave him several 
opportunities to compromise. If he agreed to abandon the New 
Citizens' Movement, he would not be put into prison. But Dr. Xu 
refused to compromise; he was sentenced to four years.
    This past year at least 200 human rights defenders have 
been arrested, including one of my best friends, Ilham Tohti. 
It is confirmed that many activists have been tortured. Many of 
these people are connected to the New Citizens' Movement. Its 
earlier incarnation was an NGO founded by Dr. Xu Zhiyong and me 
in 2003, focusing on freedom of speech, religious freedom, and 
other constitutional rights.
    The New Citizens' Movement encourages people to fight for 
civil rights and unite rights defenders around the country. 
These activities include promoting educational equality, 
pressing officials to disclose their assets, and arranging 
same-city dinner gatherings. By using online mobilization, 
street speeches, and peaceful protests, the New Citizens' 
Movement has brought the Rights Defense Movement to a new 
height.
    Why is the Chinese Government savagely suppressing rights 
defenders? For the past 10 years, the Rights Defense Movement 
has made great progress. Thanks to our struggles and sacrifice, 
we have seen several changes. First, the movement is growing 
from individual cases to street activities; second, from online 
activities into real-world activities; third, from legal 
appeals toward political appeals; fourth, from individual to 
organized activism.
    Then the authorities sense an obvious threat. However, the 
rulers of China refuse to engage in dialogue with civil society 
and brutally punish anyone who dared to threaten their rule.
    Nonetheless, more and more people are standing up to demand 
rights and democracy. For example, recently in Jiansanjiang, 
several lawyers were detained for investigating a ``legal 
education center''--or ``brainwashing'' classes. Why did they 
stand up to disclose ``brainwashing'' classes? Because they are 
the concentration camps of today. Countless Falun Gong 
practitioners have been sent to these ``brainwashing'' classes. 
At least 3,000 have been tortured to death.
    As a result of fighting for freedom, many lose their own 
freedom. I recall the time in 2011 when Beijing's secret police 
picked me up and put me in solitary confinement for 70 days. 
While the secret police used violence against me, they 
declared, ``Don't talk about law, no one can help you.'' But I 
never gave up hope.
    My longing for justice and freedom gave me strength. I 
believe that our struggle is meaningful and we are becoming 
more powerful. I also firmly believe that in the United States, 
in Europe, and in every corner of the world where the light of 
freedom shines, while the struggle of human dignity continues, 
we will not be forgotten.
    I greatly admire the U.S. Congress and the government for 
your efforts in advocating freedom and human rights. However, 
the international pressure on violators of human rights is far 
from adequate. The Chinese Government not only manipulates the 
international human rights system, it also makes use of its 
influence in order to blackmail democratic nations.
    How much economic benefit can we sacrifice for freedom? 
When people make this calculation, they are already on the 
wrong track. The oppressors of freedom are becoming more 
powerful by taking advantage of the head-in-the-sand policies 
of democratic countries and ``the silence of the good.'' 
Oppressors will not respect national boundaries. By the time 
the free world feels it needs to protect freedom, I fear it may 
be too late.
    Thank you very much.
    Chairman Brown. Thank you very much, Dr. Teng. We will 
begin questions in a moment.
    Mr. Clarke, thank you for joining us.
    [The prepared statement of Mr. Teng appears in the 
appendix.]

STATEMENT OF DONALD CLARKE, DAVID A. WEAVER RESEARCH PROFESSOR 
       OF LAW, GEORGE WASHINGTON UNIVERSITY SCHOOL OF LAW

    Mr. Clarke. Thank you. Mr. Chairman, members of the 
Commission, in my testimony today I want to look at two recent 
detentions in China and discuss their significance for the rule 
of law in China, and these detentions are those of Xu Zhiyong 
and Ilham Tohti.
    I believe that the main significance of these detentions 
lies not in the substance of the charges against them--it's not 
new that China seeks to repress those whom it sees as its 
enemies--but rather in the process that accompanied the 
detentions.
    Xu Zhiyong's current troubles began when he was placed 
under an informal kind of house arrest on April 12, 2013; his 
formal detention did not begin until July 16. After formal 
detention, the police can stretch out to 30 days the time limit 
for requesting approval of the next stage, which is the formal 
stage of arrest. The procuracy, which is the body in charge of 
prosecutions that approves the arrest, has seven days in which 
to decide to approve or disapprove the arrest.
    In Xu's case, the indictment says he was formally 
arrested--again, he was already in custody at the time--on 
August 22, which is exactly 30 days plus 7 days following his 
formal detention, so apparently someone was keeping a very 
close eye on the calendar. But to call this arrest lawful we 
would have to be satisfied that the term during which he was 
under house arrest prior to his formal detention was lawful.
    Now, what about that? The closest thing Chinese law has to 
house arrest--this term is often used in media descriptions, 
and indeed one can call it house arrest, but the important 
thing to understand is that Chinese law does not have really a 
term they call house arrest--it is an institution called 
supervised residence, but that has a number of conditions set 
forth for it in Chinese law, one of which is that in order to 
put someone under supervised residence, which is essentially 
house arrest, it must be that the conditions for arrest--that 
is, this later formal stage--are already deemed satisfied.
    So in that case it's impossible to justify Xu's subsequent 
37 days in formal detention while they were allegedly deciding 
whether or not the conditions for arrest were satisfied, 
because logically they must have already made that decision in 
order to put him under supervised residence.
    Once a suspect is arrested, the authorities have basically 
up to five months--there are all kinds of ways to extend it up 
to five months--to keep him in custody while they investigate. 
Even this five-month limit can be extended indefinitely by 
action at a very high level. That's the Standing Committee of 
the National People's Congress, which presumably is very 
troublesome. Xu was not put on trial until January 22, 2014, 
exactly five months to the day after his formal arrest.
    So again, this suggests that the generous time limits 
afforded by the Criminal Procedure Law were used to the 
fullest, something that really shouldn't have been necessary 
given that the Foreign Ministry has insisted that Xu Zhiyong's 
case was simply an ordinary criminal case, no politics about it 
at all.
    The trial itself was marred by a number of violations of 
the letter and spirit of Chinese law. First, it was not in any 
real sense open, despite the lack of any grounds under Chinese 
law for closing it. Second, the defense was not permitted to 
cross-examine any witnesses for the prosecution, despite the 
rule calling for cross-examination, or at least some way to 
challenge evidence, in the Criminal Procedure Law. Third, he 
was not permitted to call his own witnesses. To protest these 
and other problems, Xu and his counsel elected to remain silent 
during the hearing. At the end he attempted to make a statement 
but was cut off by the judge.
    Moving on to Professor Tohti: Ilham Tohti was detained on 
January 15, 2014, and apparently formally arrested on February 
20 on a charge of separatism. This period of time between 
detention and arrest could fit within that allowed under 
Chinese law if his case is deemed complex. So far, the time 
between arrest and trial has not been exceeded.
    Nevertheless, the state has deprived him of his rights 
under Chinese law in other ways. On March 4, his lawyer, Li 
Fangping, stated that he was no longer allowed to communicate 
with Tohti, apparently the reason given being that state 
secrets were involved. This is an excuse the Chinese Government 
has used so often in circumstances where it is highly 
implausible that it really no longer carries any credibility.
    Ms. Ilham has already detailed other problems such as 
cutting off funds to his wife's bank account and, previous to 
his detention, of course, taking him on various tours around 
China paid for by the state that he may not have wanted to 
take.
    So there are two lessons here. First, following legal 
procedures is of course better than not following legal 
procedures, but it doesn't necessarily produce justice. We have 
to ask what the laws say, how they were produced, and who gets 
to interpret them.
    May I have another 30 seconds?
    Chairman Brown. Proceed.
    Mr. Clarke. The second lesson is that the Chinese 
Government retains its ambivalent attitude toward the values of 
the rule of law. In many cases it wishes to claim the mantle of 
fidelity to law. It does so sometimes by making the law vague 
and flexible enough to achieve its purposes, sometimes simply 
by falsely claiming to be following law, but at other times it 
doesn't seem to be trying even to appear to be offering fair 
proceedings, or at least proceedings that follow its own rules. 
Sometimes authoritarian states try to turn political issues 
into legal issues in an attempt to neutralize them. The Chinese 
state sometimes seem to go out of its way to demonstrate that 
ostensibly legal issues are really political issues.
    So I would end just by saying it's really not clear whether 
it's reasonable to expect at least a slow movement toward the 
values of rule of law, especially a process-oriented rule of 
law.
    Thanks for the opportunity to testify. I am sorry for going 
over.
    Chairman Brown. No problem. Thank you. Thank you, Mr. 
Clarke.
    Mr. Clarke. I would appreciate any questions.
    Chairman Brown. Thank you.
    Dr. Richardson?
    [The prepared statement of Mr. Clarke appears in the 
appendix.]

 STATEMENT OF SOPHIE RICHARDSON, CHINA DIRECTOR, HUMAN RIGHTS 
                             WATCH

    Ms. Richardson. Thanks very much for the opportunity to 
testify and for your ongoing leadership. Thanks also to your 
excellent staff and the work they do.
    My written remarks summarize some of the background that 
we've written about the crackdown on Chinese human rights 
defenders, but here I simply want to stress that even if one 
isn't concerned about human rights issues, which obviously we 
think people should be, I think the current crackdown is bad 
news for reform generally in China.
    By that I mean that Xi Jinping has already shown himself to 
be a hardline and conservative leader in ways that deeply 
undercut the kind of popular support he is going to need if he 
wishes to advance the kind of tough, complex reform agenda 
against deeply vested interests and bureaucratic intransigence. 
I raise that simply to make the point that, now more than ever, 
respect by the Chinese Government--or lack thereof--is a 
bellwether we think for political, economic, and legal reform 
going forward.
    I was asked to focus on three specific issues today. One, 
about similarities and differences in the current crackdown 
from past ones. I think the similarities are that these things 
tend to happen at times of political uncertainty.
    At the moment, that really is about the fate of Xi 
Jinping's reform agenda and about the investigations of 
individuals like Zhou Yongkang, senior political figures who 
are now being investigated presumably on corruption charges. I 
think the other similarity is that the prospects for 
accountability for the crackdown itself remain quite low. It 
will be difficult to imagine prosecutions for the people who 
have abused Xu Zhiyong and Ilham Tohti and who are responsible 
for Cao Shunli's death.
    I think there are a couple of important differences right 
now. The first one is that I think the current crackdown 
appears to be considerably more strategic, proactive, and 
aggressive on the government's part. It's not simply reacting 
to external events like Liu Xiaobo's 2010 Nobel Prize win. I 
think we're seeing authorities targeting people who are part of 
initiatives like the New Citizens' Movement, or going after 
professors and their students, as has also been the case for 
Professor Tohti's--some of his students.
    Second, the government appears to be trying to break down 
the interdependent relationships between social media activists 
and mass media that we think are often critical to actually 
advancing some kind of change, for example, the push against 
``Big Vs'' last year, against certain kinds of Internet users.
    Arguably, of greatest concern, this crackdown is targeting 
incredibly moderate middle-of-the-road activists and issues. 
These are people who are pushing for public asset disclosure, 
for access to education, access to UN human rights mechanisms. 
These are not particularly incendiary calls for regime change, 
these are issues that would at best wind up in the B section of 
most American newspapers. The fact that even those issues are 
considered off limits is of real concern.
    I was asked to say a few words about how Tibetan and Uyghur 
human rights defenders are faring. Obviously we have talked 
today about the disastrous and politically motivated 
prosecution of Ilham Tohti. I am compelled to note that 
yesterday marked the 12th anniversary in prison of Tenzen Delek 
Rinpoche. These are communities that are extremely vulnerable.
    Alongside the national crackdown, I think the tightening in 
both of those regions following self-immolations, following the 
Chinese Government's efforts to paint Uyghurs without providing 
any credible evidence as responsible for attacks on civilians 
in Beijing and Kunming, puts those communities at even greater 
risk and actually lowers the standard of what kind of behavior 
is considered problematic.
    We're keeping a close eye on the case of Abduweli Ayup, who 
is a Uyghur who was arrested in July 2013 for raising money for 
schools. He was detained, along with two other men. Nine months 
later, we still don't even know what the charges against him 
are and that's a real concern to us.
    I want to spend at least a minute talking about what we 
think the United States should be doing. Despite, I think, the 
often Herculean efforts of people who spend all day within the 
U.S. Government trying to defend human rights issues, we think 
that senior levels of the Administration remain deeply 
ambivalent about whether human rights issues in China are ones 
simply to be managed primarily for a domestic constituency or 
whether they are ones that the United States should be making 
an effort to try to solve. Those are two very different things.
    We all know that change is largely going to come from 
inside China, but I think there is a role for external 
pressure, as Professor Teng has noted, and that largely through 
reputational pressure there should be a price levied against 
the senior Chinese leadership for these kinds of abuses.
    I'm going to try to exercise the same privilege that 
Professor Clarke did, if you don't mind.
    I think helping solve the problem actually requires 
elevating abuses and individual cases consistently to the 
senior-most discussions, from the President on through members 
of the Cabinet, above and beyond the State Department and the 
usual suspects who are tasked with raising human rights abuses. 
They should all be prepared to raise an individual case, just 
one--it's not a big ask, just one--and be prepared to talk 
about that case when they meet with their Chinese counterparts.
    Ask why that person has been detained. Ask why they've been 
charged with what they've been charged with. Be politely 
prosecutorial and ask for an explanation. Often Chinese 
interlocutors aren't going to have an answer on the spot, but 
certainly the fact that an unusual suspect asked the question 
will certainly be made note of.
    For anybody in the U.S. Government who thinks that human 
rights issues in China are somehow beyond their bailiwick, I 
would commend them to Susan Rice's December 2013 speech which 
made very clear that these issues cut across the bilateral 
relationship.
    I think solving the problem also means using things like 
the 2011 Executive Order allowing for visa bans. I think 
solving the problem means the United States, which has 
generally been good on refuge issues from China, stepping up to 
counter pressure on Nepal, for example, to forcibly return 
Tibetans, and on southeast Asian countries to forcibly return 
Uyghurs.
    Last but not least, I think helping solve the problem 
entails speaking to, for, and about these activists who are 
running extraordinary risks and paying incredibly high prices 
for their work. Now, these are the people who are doing what 
the United States says it wants to see inside China, and I 
think recognizing that kind of work and credentialling those 
kinds of people is pivotal to bringing at least a little bit of 
an end to some of these kinds of problems. Thanks.
    [The prepared statement of Ms. Richardson appears in the 
appendix.]
    Chairman Brown. Thank you, Dr. Richardson.
    Ms. Ilham, thank you again for your testimony. You had said 
that no one can visit your father. Do you know how he's doing, 
and do you have thoughts on what we can do to help him?
    Ms. Ilham. Until now I didn't get any news about how he is 
doing because nobody can visit him. And I'm really grateful for 
what you have been doing about this during these days, and 
especially for supporting my father's full rights and 
expressing concern for his current situation. I think I would 
ask the United States and everyone to continue to press China 
for his release and not to forget his case. I hope that all 
efforts can be continued. Thank you.
    Chairman Brown. What is your sense, Ms. Ilham, of the 
growing violence in Xinjiang?
    Ms. Ilham. I'm sorry?
    Chairman Brown. What is your sense of the growing violence 
in Xinjiang?
    Ms. Ilham. Well, I'm not an expert, an academic expert on 
Xinjiang, but I think I, my father, and most of the Uyghur 
people, I think nobody really wants violence and nobody wants 
to hurt innocent people. So some people, a few Uyghur people, 
now use violence but that doesn't mean that everybody wants to 
do like that. Also, it doesn't mean that my father supports 
this violence.
    Chairman Brown. Okay. Okay.
    Ms. Ilham. That's what he struggles for, to let people 
change their mind.
    Chairman Brown. Okay. Thank you, Ms. Ilham.
    Dr. Teng, can you describe the New Citizens' Movement in 
more detail and why should we in the United States be paying 
attention to the New Citizens' Movement?
    Mr. Teng. Yes. The New Citizens' Movement began formally in 
2012, and there are hundreds or thousands of Chinese citizens 
involved in this movement. So we try to unite all citizens with 
the ideas of the rule of law or liberal democracy, and come 
together to discuss public affairs.
    Since 2003, Dr. Xu and many other human rights lawyers 
promoted the Rights Defense Movement, and he also initiated the 
New Citizens' Movement. This movement brought the Rights 
Defense Movement to a new level. Many human rights activists 
who are promoters of the New Citizens' Movement are now 
detained, and it's reported that some of them have been 
tortured in detention, so I hope the international society can 
pay more attention to political prisoners and the New Citizens' 
Movement.
    Chairman Brown. Thank you, Dr. Teng.
    Professor Clarke, you followed and have been involved and 
observed up close China's legal development. Where is it going 
in the next 5 to 10 years, and what impact and how do we have 
impact as a Nation in encouraging development of the rule of 
law in China?
    Mr. Clarke. Well, I think it's not--maybe I could say where 
it's not going. I don't see it going significantly in the 
direction of political liberalization. In the Decision of the 
Third Plenum of the Central Committee which was recently held, 
there were some legal reforms mentioned that might have some 
kind of a positive effect, I think, in bringing greater 
regularity to the court system.
    But that would be regularity in enforcing whatever laws 
happen to be there, so maybe less room for arbitrary discretion 
by local political leaders and having local courts do what they 
want, but no limitations, no further limitations on the 
ability, for example, of the central leadership to, in effect, 
persecute those that they are interested in persecuting, such 
as people like Xu Zhiyong and Ilham Tohti. So to sum up, I 
guess I would say there may be some modest institutional 
changes that would be consistent with greater protection of 
human rights but wouldn't necessarily have that content.
    Chairman Brown. Dr. Richardson, what, in light of Professor 
Clarke's comments about any impact we could have, are our 
points of leverage to encourage China to improve its human 
rights behavior, if you will, and to move more toward rule of 
law?
    Ms. Richardson. Well, I think it's at a couple of different 
levels. The first obviously is really at a diplomatic public/
political level. I think that unless the senior leadership 
knows that they are going to have to answer questions in every 
single meeting they have with senior American counterparts, 
then you might get a little bit better behavior.
    There are obviously much more systemic problems 
particularly in the legal system, and especially as long as the 
CCP [Chinese Communist Party] retains as much control over the 
legal system as it does. That said, I think there's enormous 
room to providing support to, for example, innovative lawyers 
who are trying to either improve particular laws or access to 
justice, essentially.
    Chairman Brown. But what are Chinese officials saying when 
we bring that up? Do they accuse us of compromising on voting 
rights or do they accuse us of checkered racial policies in 
this country, or do they deny, or do they do all of the above?
    Ms. Richardson. It varies a little bit on what the setting 
is. For example, when the Chinese Government publishes its 
annual report on the United States' human rights record, that 
tends to largely be about crime and about racism and certain 
kinds of systemic discrimination in the United States and it's 
their way of saying, you know, you have these problems too so 
stop talking about ours.
    Typically what happens if an individual case is raised is 
that there will sort of be--typically there won't be much of a 
reply at all, or you'll get a reply to say, you know, this case 
is--it's a common criminal. This is somebody who has violated 
Chinese law.
    Chairman Brown. Do you both agree, Professor Clarke and Dr. 
Richardson, that U.S. Government officials bringing up Ilham's 
father's case is meaningful and helpful?
    Mr. Clarke. Yes, I would agree. I think that the experience 
of dissidents in Eastern Europe, for example, as people like 
Vaclav Havel have testified, is that knowing that the attention 
of the world was on them was extremely helpful and kept them 
going.
    I think that on the level of the government, too, there's 
sort of a natural reluctance on a human basis to raise 
embarrassing, uncomfortable topics. But I don't think it does 
any harm to do so and I think it may do some good, again, by 
letting the Chinese Government know that people have not 
forgotten these issues.
    Chairman Brown. It does not result in more retribution?
    Mr. Clarke. I don't think so.
    Chairman Brown. I'm sorry, that's Dr. Richardson. Either 
way. Okay.
    Ms. Richardson. I agree entirely with what Professor Clarke 
just said. Typically what happens in especially high-profile 
political cases is that prison authorities then know that a 
particular individual is being asked about, and in fact they 
tend to be treated better.
    Chairman Brown. Okay. Okay.
    Mr. Pittenger, your comments please. Your questions. Thank 
you.
    Representative Pittenger. Thank you, Mr. Chairman.
    Ms. Ilham, your father made it clear that he is committed 
to peaceful dialogue between different ethnic groups in China. 
Why do you think Chinese officials are so fearful of him that 
they would lock him up and charge him with such a serious crime 
as separatism?
    Ms. Ilham. Excuse me. I have a problem for understanding. 
Can I ask for translation?
    Representative Pittenger. Sure.
    Ms. Ilham. First of all, ethnicity has been a very 
sensitive topic since a long time ago, and my father is a very 
outspoken person. He has been speaking about the Uyghur 
situation in front of the public for a long time. He has been 
very honestly talking about the situation, the Uyghur situation 
in China.
    Of course they have a good point and they have bad points 
made. I think in my view, I think Chinese cannot accept that my 
father is telling the truth. But when my father--he just wants 
people to know the truth and to get more--like, Uyghur people 
can have equal human rights like the general Chinese citizen. 
Thank you.
    Representative Pittenger. He is a very courageous man.
    Chinese authorities, Ms. Ilham, have frozen your father's 
bank accounts. You've spoken about how your two younger 
brothers have been affected by his arrest.
    Ms. Ilham. Yes.
    Representative Pittenger. Could you talk more about the 
impact of your father's arrest on your family?
    Ms. Ilham. Well, since January 15, my family has been under 
house arrest. They have been so for fully 24 hours a day. The 
police sleep in front of the doors and so the neighbors have 
really--they have complained and they don't--now they've 
stopped talking to my family.
    Of course, my brothers, their personality has been really 
affected. They were really extroverted and now they've become 
introverted. They stopped talking, especially the elder one, my 
7-year-old brother, because he saw how my father was beaten and 
taken away by the police, so he knows what is going on, so now 
he has--every time when we Skype he tells me he really misses 
our father and he wants to see me soon.
    Also, my brothers--basically, my brothers--like, their 
school work also has been affected. Until now I didn't see my 
family for more than one year. I had never left my parents 
before. Because my elementary school, my middle school, are all 
very close to my home. This is my first time not seeing my 
family for such a long time.
    Representative Pittenger. Thank you. We stand with you, 
certainly.
    Ms. Ilham. Thank you.
    Representative Pittenger. Dr. Teng Biao?
    Mr. Teng. Yes.
    Representative Pittenger. Thank you, sir, for your 
testimony. One of your goals is to combat China's serious 
corruption problem with the Chinese Government also seems to be 
trying to address, possibly for political reasons. What do you 
think needs to happen in order for the Chinese Government to 
meaningfully address the issue of systemic corruption?
    Mr. Teng. We have seen top Chinese leaders also crack down 
on corruption, even higher level leaders. But we have seen that 
Dr. Xu Zhiyong and many other human rights activists who 
demanded disclosure of official assets have been detained and 
put into prison. They are oppressing other activists who are 
against corruption.
    It is obvious that without meaningful political or judicial 
reform, without separation of powers and judicial independence, 
there is no hope to get rid of political corruption. Xi Jinping 
and the Communist Party is using its power to crack down on 
civil society and they will not change the political system.
    Representative Pittenger. Dr. Teng Biao, what will it take 
for the Chinese Government to view the New Citizens' Movement, 
human rights lawyers, and people like yourself not as threats 
but rather as well-intentioned citizens who want to help China?
    Mr. Teng. I beg your pardon?
    Representative Pittenger. Well, you have spoken previously 
about the New Citizens' Movement. What I am trying to find out 
is do they see you as a threat today. What will it take for 
them to view you differently, to see you as one who is well-
intentioned for the best interests of China?
    Mr. Teng. I have been kidnapped and detained several times 
and since I'm a visiting scholar in Hong Kong, they cannot 
arrest me. Someone told me that I'm also on that list, so if I 
go back to China, it's highly possible that I will be arrested. 
But many other human rights defenders and lawyers are still 
continuing their human rights activities even today, and I will 
go back to China because it's my responsibility to fight for 
human rights and freedom in China.
    Representative Pittenger. Thank you, sir.
    Last night I had dinner with a major banker with the Ex-Im 
Bank in China. I discussed with him those who stand for human 
rights, particularly those who have freedoms of conscious 
issues and religious freedoms, and particularly Christian 
people in this country.
    My statement to him was that those people of faith were 
people who would be good citizens because they, as followers of 
Jesus, would in large measure be honest people and people that 
would be good for the culture and good for business.
    I think that is what I'm trying to understand. You have 
well-intentioned objectives for the good of China in your 
movement with the New Citizens' Movement and my hope is at some 
point that the Chinese Government will see that people like 
yourself are good for the culture and good for the society.
    Mr. Chairman, do I have time for one more?
    Chairman Brown. If you want to ask each of the other two 
witnesses.
    Representative Pittenger. Yes, I do.
    Chairman Brown. You may proceed.
    Representative Pittenger. Thank you.
    Dr. Richardson, thank you for your testimony. I'm working 
with a former U.S. Ambassador to the United Nations on a 
separate issue but I'm interested in your perception of how the 
United Nations is dealing with these issues.
    How would you describe China's participation in the United 
Nations, particularly on the UN Human Rights Council, the 
universal periodic reviews of each country's human rights 
record conducted by the UN Human Rights Council, and is the 
United Nations an effective forum for dealing with China or 
does it help legitimatize China's abuses?
    Ms. Richardson. How much time have I got, sir?
    [Laughter].
    Ms. Richardson. Let me see if I can organize this. I think 
in light of the extraordinarily uncooperative performance the 
Chinese Government turned in around the final phase of its own 
review under the universal periodic review mechanism, including 
largely around Cao Shunli's death and the efforts to postpone 
that session, the efforts to hold it when the translators would 
have gone home, the extraordinary decision to try, instead of 
for once objecting to people speaking to staying silent when a 
number of NGOs wanted to use their speaking opportunities to 
have a moment of silence to remember Cao Shunli.
    I think it shows you not only how the process of many 
issues at the United Nations essentially becomes the substance 
for the Chinese delegation in question, but also the lengths 
that they'll go to to really, I think, prevent scrutiny of 
particular issues inside the country.
    If we're talking about votes on Syria and Libya and how 
they may or may not react to the proposal of, for example, an 
ICC [International Criminal Court] referral for North Korea 
based on the Commission of Inquiry report that was just 
completed, which is an extraordinary piece of work, I think 
it's pretty clear that we can expect uncooperative behavior 
there.
    There are a number of different levels we can try to talk 
about this on, but I think what's most important for defenders 
inside China--and I obviously welcome other people's views on 
this--is that the UN's system presents them with a number of 
mechanisms to at least discuss the country's human rights 
record. I think in that sense it's important. The government, I 
think, will continue to pour extraordinary resources into 
limiting that discussion.
    Representative Pittenger. I thank each of you for your 
responses and for the opportunity to visit with you. Thank you 
particularly, Ms. Ilham.
    That concludes my questions.
    Chairman Brown. Mr. Pittenger, thank you for your 
questions.
    Mr. Walz, welcome.
    Representative Walz. Well, thank you, Mr. Chairman. To my 
fellow Commissioners and the staff, thank you all for being 
here.
    Ms. Ilham, I noticed and I think your father's about my age 
and I've got a young daughter. I could only hope that she would 
be as courageous in a similar situation as you have shown 
because I think all of us in this room certainly understand 
what your courage means to you and your family. So with that 
I'm grateful to you, and I think to each of you.
    Dr. Richardson, you've summed this up and you've done a 
wonderful job, all of you have, of pointing this out. I very 
much appreciate where you were hitting on. This isn't just an 
academic exercise. It feels like many of us have been here for 
so long. Unfortunately, there will be another young lady 
sitting where Ms. Ilham is with a similar story.
    The question that I want to ask each of you, and my 
colleagues have asked on this, is how do we get at the heart of 
making that difference? And I get it. You know, this response 
that you have things you need to work on, heck yeah, we do. But 
we're not going to cover them up and we're certainly going to 
discuss them and we're certainly going to move in a direction 
to try and address those.
    So that doesn't get you off the hook. My question is, do 
any of you feel, and each of my colleagues have asked wonderful 
questions of where that point of leverage is or whatever, I 
think many of us still keep coming back to is, do we have the 
courage on the leverage? Because it's going to come back to 
economic issues on that. That's going to make the leverage and 
that's going to hurt if we choose to do so.
    Do any of you have confidence that there are those things 
that are going to make a difference? There's ways that we can 
go and ways that we can influence that, because I think we've 
all struggled with this for many years. We've struggled with it 
prior to most favored nation and decoupling and everything 
else, and we've struggled since then.
    But I, for one, want to know what the path is to move that 
back in because I am deeply concerned that now the statements 
you've all made, that we're just not even going to listen to 
what you say. I think this troubled me, Mr. Clarke, but I think 
you're right. We're not even making an attempt to say we're 
doing it anymore at times, we're just going to do it, and 
that's very challenging.
    So I'd just like to hear from each of you. I know this is 
very broad, but I'm at the point where, what can we do? It 
sometimes feels very lonely that it's this room, and I'm glad 
you're here because I know there are others thinking of this 
and the folks that are here. But what can we do? How do we make 
a difference?
    Ms. Richardson. There are a lot of people out there to 
support. This is a big and messy answer to a big, broad 
question. I think there's much to be said for feeding into a 
sense, particularly on the Chinese Government's part, about 
needing to compete for a sense of legitimacy. It drives me 
nuts--nuts--that the United States fails every single time 
there's a leadership transition to point out that this is not 
an elected government. Every single time. It's 800 million 
people who once again got denied the right to vote. The United 
States comments on transitions and elections all over the world 
all the time. It treats China differently and it forgets that 
this is not a government that was elected. There is a real 
discussion domestically.
    Representative Walz. Why does it forget if it's not 
economics? Why do you get the pass?
    Ms. Richardson. It's inconvenient, it's embarrassing. Who 
has to do it? There's protocol. I mean, the list of reasons I 
have for not doing it that I've been given by U.S. Government 
officials over the years is long.
    But look, I mean, Teng Biao is part of an incredible 
movement of people who are trying. It's a question you 
precisely asked a few minutes ago about, what does it take for 
that government to realize that this movement is constructive, 
that it's meant to better the country, not to threaten it?
    So I think really what has to be at the center of efforts 
is putting the CCP on the back foot to have to answer for its 
behavior, but also to do the best the United States and other 
governments can do to recognize people and movements that are 
actually trying to act legitimately in the interests of larger 
numbers of people inside China.
    It's a big, messy question that doesn't necessarily follow 
to obvious policy implications. But the United States has to do 
a much better job in remembering that it's people like Teng 
Biao who speak a lot more legitimately for people inside China 
than any of the officials who wind up in meetings day after day 
after day with U.S. Government officials.
    Representative Walz. Well, if I could follow up, and I 
appreciate that. Teng Biao, ni hao. Good morning. I know it is 
4:30. I want to see that sunrise over the harbor that you're 
going to see. I'm grateful for you. And you heard Dr. 
Richardson. Could you elaborate a little bit on that? Because I 
guess for us this is a group here that cares about this. The 
Senator has been here for years and moving this ball forward. 
What can we do to help? What can we constructively do to help?
    Mr. Teng. Yes. Thank you. It seems that Chinese leaders 
never listen to the outside world but the fact is that you, the 
United States, and the whole world who are fighting for human 
rights have made a difference. Without your support, we human 
rights defenders in China will face more difficulty, and we 
have made a difference, too, in China.
    We can see that even though the crackdown never stops, we 
have seen more and more Chinese people standing up for human 
rights and freedom, the Internet, civil society, NGOs, the 
human rights lawyers group, and we have made great progress in 
civil society. So my idea is don't stop the support for human 
rights in China; it's always meaningful. So we hope to have 
more media reports, more statements, more hearings, and 
mentioning more names, and more support for NGOs. That's very 
good and we really appreciate it.
    Representative Walz. My time is about up. Maybe Dr. Clarke, 
or if we come back around on a second.
    Chairman Brown. You'll be presiding so you can do that.
    Representative Walz. Okay. We'll wait until we come back 
around, Dr. Clarke, on a second one.
    Chairman Brown. Thank you. I was called to vote. I'd like 
to ask one more question, then turn it over to Congressman Walz 
to preside. Mr. Pittenger, if you want to stay, certainly.
    I was intrigued by the last line of questions on Mr. 
Pittenger's insight and then Mr. Walz's discussion. Dr. Teng 
said that ``countries like the United States often sacrifice 
human rights for trade with China.'' That seemed to be accurate 
back in 1999-2000 when Congress passed PNTR [permanent normal 
trade relations]. I remember a friend of mine said there were 
more corporate jets at National Airport lobbying for PNTR than 
he had ever seen.
    CEOs who normally didn't bother with rank-and-file House 
Members in the majority or the minority walked the halls of the 
Cannon, the Rayburn, and the Longworth Building, imploring 
individual Senators or individual Congress men and women to 
support PNTR. Their effort in the Senate was easier in those 
days.
    Talk that through. I mean, U.S. corporations send jobs to 
China, seem not to be on the side of human rights far too often 
in the workplace. U.S. policymakers seem to turn their heads 
oftentimes. Ms. Richardson speaks out that we treat China 
differently. I think this President has been more aggressive in 
trade enforcement than his three predecessors, but I think he 
has still fallen short.
    The SED talks, the Strategic Economic Dialogue, never puts 
currency quite as front-and-center as I know a lot of us would 
like him to do. Or like our diplomats, our trade people, our 
finance, our treasury people to do--I'll read again Mr. Teng's 
comment that ``countries like the United States often sacrifice 
human rights for trade with China.'' I will ask Dr. Richardson 
and Professor Clarke what they think of Mr. Teng's belief.
    Mr. Clarke. I think that in some cases that's true. I think 
the United States--for example, we recently heard that in 
Belgium during Xi Jinping's visit, and this also happened in 
London during Xi Jinping's visit, the police took extraordinary 
measures subsequently ruled illegal in the courts of that 
country to prevent Mr. Xi from the unpleasant site of Tibetan 
protests.
    I think the United States is in the fortunate position of 
not having to make those compromises, and so if indeed U.S. 
trade officials or U.S. officials concerned with human rights 
are playing down their concerns for the benefits of trade with 
China, I think that's probably not necessary. I think China 
still needs the United States more than the United States needs 
China.
    Chairman Brown. Dr. Richardson?
    Ms. Richardson. I would agree with that. I do think that 
sometimes specific decisions or interventions are shelved as a 
result of trade, currency, or other economic issues, but I 
think human rights issues get subordinated for lots of 
different reasons, whether it's military, whether it's 
diplomatic, whether it's something at the Security Council.
    I think one of the mistakes that gets made, partly because 
I think it is hard to do well, is to really integrate human 
rights issues across a much broader spectrum of different 
aspects of the bilateral relationship, but there is a lot of 
room and that's what Rice's remarks, I think, there quite good 
at in saying to different parts of the U.S. Government, this 
relationship is not going to fall apart if you raise this 
issue. You are actually in an unusually good position to press 
for a particular kind of change or a particular mistake.
    I mean, if the larger question is about the relationship 
between China opening up economically and whether PNTR was a 
mistake, clearly raising income levels in China has been 
extremely beneficial in many ways. Obviously nobody is arguing 
against that. I think it's about both relating human rights 
issues to other issues in the bilateral relationship and not 
letting them fall victim, especially when they underpin them.
    Chairman Brown. Thank you, Dr. Richardson. Thanks.
    Thank you again to Mr. Liu and the staff for their good 
work on this. I will turn it over to Congressman Walz and 
Congressman Pittenger to continue. Thanks to all four of you 
witnesses. We thank you very, very much.
    Representative Walz. Well, thank you. I just had a couple 
of follow-ups and then we'll see if Mr. Pittenger has anything 
on this. My question to each of you, and maybe our experts 
about this--about this a long time, as the United States re-
sets its strategic position, if you will, we keep hearing about 
the re-set to the Pacific as the situations in the Middle East 
start to change and this re-set to the Pacific is both 
military, economic, supposedly much more geopolitical as we 
look at it.
    How does this have an impact on this relationship? Does it 
change that? Does it bring more leverage or does it heighten 
the situation, because quite honestly, I think as we all know, 
there's going to be much more activity in the Pacific than 
there has been. So if anyone wants to try and grab that one.
    Mr. Clarke. Well, I guess China, or the Chinese Government, 
almost no matter what the United States does, is going to 
believe that the U.S. Government's speaking out about Chinese 
human rights is linked solely to U.S. strategic concerns, 
security concerns, and does not stem from a genuine concern on 
human rights, because they are going to look at their own 
report on human rights in the United States, which of course 
does not stem from concern about human rights in the United 
States but is simply a ``so is your mother'' response to the 
U.S. report on human rights in China.
    So I think it's possible that the pivot to Asia could make 
China even more suspicious. It's certainly not going to make 
China less suspicious. It's probably going to make it more, but 
it's already at a very high level of suspicion and distrust 
about U.S. Government motives in this. So I think possibly for 
that reason it's important for the U.S. Government to support 
non-governmental initiatives in this area.
    I think also--can I go back and answer your earlier 
question? I think it's important to realize there really are 
limits to what not just the United States, but anybody, can do. 
China is like a giant aircraft carrier and there are little 
rowboats tugging at it, trying to move the human rights 
situation in one way or the other. But what really is going to 
change the direction of that aircraft carrier is what is going 
on with the crew inside, and that's where real change is going 
to come from.
    But as Dr. Richardson points out, legitimacy is very 
important. If you'll recall back when the Helsinki Accords were 
concluded, a lot of people thought, well, this is just giving 
the USSR the legitimacy it wants for its borders. And what did 
we get in return? A pig in a poke, this kind of commitment to 
human rights standards. But it turned out that that was very 
important. That sent an important signal to the internal 
dissident community in Russia and Eastern Europe.
    So China is always going to act in its perceived interests, 
so if China thinks it's in its interests to cooperate with the 
United States over North Korean denuclearization, they're not 
going to stop doing it and go off in a hissy fit because some 
U.S. officials start raising human rights issues.
    We often hear, ``Oh, you know, the Chinese Government never 
responds to pressure.'' That's what the Chinese Government 
would like you to think, but of course it's nonsense. Why would 
anyone ever change the status quo until it starts getting 
unpleasant? So one has to make the status quo start getting 
unpleasant if one is going to have any hope of getting the 
Chinese Government to change its policies.
    Ms. Richardson. I'll just add a little bit of a different 
concern about the pivot Asia-wide. I can't improve on what 
Professor Clarke has just said, but simply to point out that 
the pivot does not appear to involve a commensurately greater 
effort on human rights issues in Asia.
    In fact, it has been of serious concern to us that the 
pivot appears to have driven for, example, a desire to have 
much closer relations, for example, with countries like 
Vietnam, partly as a result of increased Chinese assertiveness 
or unproductive response to an increased U.S. presence. Vietnam 
has an appalling human rights record. It has led the United 
States to perhaps engage more in Indonesia, particularly with 
the military, than we think may be entirely appropriate. So 
it's hard to see the human rights dimension of the pivot 
itself.
    Representative Walz. Well, I'm fascinated by what--and all 
of you have said this, that we're looking--certainly trying 
to--you know, there is no magic bullet here and it's deep and 
it runs deep. But I think of these cultural changes.
    I can still remember back to my China times in the 1980s 
and how shocked I was when I went into the social studies 
classroom and there was a picture of General Stillwell on the 
wall, that there was a group of Chinese who grew up in that 
time that saw things differently, and I guess maybe trying to 
cling to the hope that there's going to be cultural change and 
an understanding that we're in this together, as Dr. Teng 
pointed out, as constructively trying to get there, that we are 
proudly Chinese but we are also looking for some basic human 
rights issues.
    I understand it's those deep-seated cultural changes that 
are the only things that are going to get at this. I'm trying 
to see, how do we foster those, whether it's--like what you're 
saying, is that pivot had better come with some other things 
than just forward bases in Guam, or whatever it ends up being.
    Ms. Richardson. Sorry, just one other quick point I'll add 
is that I don't know if we're using the word ``culture'' in the 
same way. I think it's about political power and who has access 
to it, and who has what rights and whether they're respected.
    Representative Walz. Yes.
    Ms. Richardson. But I think one other important dimension 
of the pivot and the New Citizens' Movement and sort of where 
we are at this time in history is to know that a number of the 
people, including those who are going to be tried or whose 
appeals are going to be heard this week, like Xu Zhiyong's, or 
people who I think sort of came of age politically in China in 
and around Tiananmen.
    Representative Walz. Yes.
    Ms. Richardson. We're bumping up against the 25th 
anniversary of that in a few months.
    Representative Walz. Yes.
    Ms. Richardson. It's extraordinary to think how little 
ground the Chinese Government has been willing to give on some 
of the same kinds of rights or freedoms that people were asking 
for in those circumstances. It's now the world's second-largest 
economy, it has an active space exploration program, and yet--
and yet--25 years later Ding Zilin and the Tiananmen Mothers 
still can't get----
    Representative Walz. Yes, I think it's very insightful. 
Many of us mark time from that.
    Ms. Richardson. I do.
    Representative Walz. Yes, me too. Twenty years ago on June 
4 I married my wife. There was no doubt I would remember that 
date. So, it's oddly enough how that works out.
    But Mr. Pittenger, if you have any follow-up.
    Representative Pittenger. Thank you, Congressman Walz.
    At the outset, Chairman Brown lamented that this is 
bipartisan or bicameral. I mean, we are all here and a large 
group of our congressional body, House and Senate, are truly 
committed to these concerns. Congressman Walz expressed his 
concerns as well.
    I think I am reminded that 20 years ago I went to the 
former Soviet Union with Congressman Wolf--it was during 
Perestroika and Glasnost--and made our case for 119 dissidents 
imprisoned. We spent a week there. It was through an 
organization called Christian Solidarity but we were able to 
get these dissidents released from prison and have 3 million 
Bibles distributed because of the courage of a congressman and 
the courage of a member of Parliament, David Amess, who joined 
us on the trip.
    I just wonder, I've been disappointed in the lack of 
commitment and voice by many administrations to speak to this 
issue when they had opportunity to do so, but what can we do as 
a Congress to speak out--and I don't know where this will take 
us, but I think we need to be more focused and clear and really 
think strategically on how this body can awaken this issue and 
bring it to the forefront. So thank you so much.
    Ms. Ilham, I have four children, three of whom are 
daughters. You are a lovely lady, about the age of my daughters 
as well. I applaud you for your commitment, your love for your 
father, your commitment to him, your commitment to the freedom 
of other concerned like-minded people in China and your 
willingness to come forth today and to be with us. We are 
grateful for you and for your family.
    Ms. Ilham. Thank you so much.
    Representative Pittenger. God bless you.
    Representative Walz. Thanks, Mr. Pittenger.
    I'd like to ask unanimous consent to submit Cochairman 
Representative Smith's statement for the record. No objection, 
so ordered.
    I want to thank you all. We are grateful. We'll stay on 
this. You were right, Ms. Richardson, this is the best staff 
you could ever hope for. These are committed folks to getting 
it right. They're certainly a candle in the darkness at times 
and I appreciate that.
    I think it's appropriate--before we adjourn, Ms. Ilham, you 
have earned the right to have the final word if you would like 
it.
    Ms. Ilham. Thank you so much for asking me to come here 
today to testify for my father, and thank you so much for all 
you have done for my father. Thank you so much.
    Representative Walz. With that, this Commission hearing is 
adjourned.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    [Whereupon, at 4:50 p.m. the hearing was adjourned.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Jewher Ilham

                             APRIL 8, 2014

    My name is Jewher Ilham and I am grateful to the Congressional-
Executive Commission on China for giving me this opportunity to appear 
here and to speak to this committee about the suppression of dissent in 
the People's Republic of China as I have personally experienced it. I 
am currently enrolled as a student in the Intensive English Program at 
Indiana University and hope to matriculate into a degree program when I 
finish. This was not what I expected would happen to me over a year ago 
when I first set out to accompany my father, Ilham Tohti, to the U.S. 
where he was to take up a position as a visiting scholar at Indiana 
University in February, 2013. I was to stay for a month, helping my 
father set up his living arrangements; my father was to stay for a 
year.
    My father, Ilham Tohti, is a well-known economist and writer based 
at Central Minzu University in Beijing, and an advocate for the human 
rights of the Uyghur people. Although I am Uyghur, I am not an academic 
expert on Xinjiang, nor an expert on Chinese politics. But I have been 
able to observe the impact and results of repressive Chinese policies 
as they have been applied to my father, his work, his students, and his 
family.
    On February 2, 2013, after we arrived at the airport in Beijing and 
were checking in for our flight to the U.S., we were pulled out of line 
and taken away. When a bureaucratic error led to my being given the 
choice of continuing the boarding process and flying to the U.S. My 
father insisted that I continue the trip alone. He was detained, 
beaten, questioned and forbidden from leaving China. What were his 
crimes? On his website, Uyghur Online, and via other social media, he 
had written widely, about the abuses of basic human rights that are 
visited on the Uyghur people and that abridge their intellectual and 
religious freedoms. These policies, at their most egregious, leave them 
feeling like a people under occupation.
    2013 was not the first time my father had been detained by the 
authorities, nor the first time that he and other members of our family 
had been subjected to harassment. The government was particularly 
enraged at the work my father did after serious clashes in Xinjiang in 
2009 left many people dead and a significant number ``disappeared.'' My 
father worked to get the names of these people out and to cast a 
spotlight on the lack of due process that was a large part of China's 
method of repressing Uyghur grievances. As a result of this work my 
family was removed from their residence and moved around for one month, 
our phones and computers confiscated.
    This became familiar. In April 2011, my father and grandmother were 
sent to Guangzhou for a week. I stayed in Beijing with my mother (my 
parents are divorced). In December, I returned home from school one day 
and without forewarning found an empty home: my stepmother, my father 
and my brothers had been sent to Hainan for two weeks. On my own I made 
my way to my mother's home.
    In 2012 the authorities the confiscated my five-year-old brother's 
residence book, thus blocking him from registering for school or having 
a passport. The university authorities also cancelled my father's 
classes for one semester without any explicit cause. Over the years 
too, Uyghur Online has been periodically shut down by the government.
    In the fall of 2013 State Security personnel rammed my father's car 
when he was en route to the airport to pick up his mother, who was 
flying to Beijing from Urumqi. When he got out of his car the State 
Security people told him they would kill everyone in our family.
    But the worst was what happened on and after January 15 of this 
year, the last day that any of our family saw my father. On that day 30 
or 40 police from different offices came to our house and took my 
father away, confiscating documents, telephones, computers, and even 
our family safe. All this was done without any due process or requisite 
formalities. For days we had no information about his whereabouts; his 
lawyer was not allowed any contact with him. Then, on January 25, the 
Urumqi Public Security Bureau announced a slew of accusations against 
him, including inciting separatism and hatred of the country, as well 
as praising terrorists. Anyone who knows my father realizes how utterly 
false these charges are. One prominent Chinese intellectual has noted 
that my father is one of the few Uyghurs intellectuals and dissidents 
who, to his knowledge, does not favor separatism. My father never 
speaks about separatism; in fact he is exactly the sort of person a 
rational Chinese political structure would seek to engage with in order 
to address the conditions of the Uyghur people. Instead, by arresting 
my father and threatening him with charges that carry the severest of 
penalties it has driven many Uyghurs to a point at which they can't 
even imagine that their wholly justified grievances can get any sort of 
a hearing under Chinese rule. Today, we know that my father is being 
held in the Urumqi Municipal Prison. But no one can visit him.
    The punishment of this honest, outspoken dissident doesn't stop 
here. The Chinese state doesn't just punish (justly or unjustly) an 
individual political prisoner. It often metes out a collective 
punishment to the prisoner's family. My stepmother has no access to 
family funds that legally belong to her because my father's bank 
account has been frozen. He has been the primary breadwinner for the 
family. She and my young brothers (ages 4 and 7) are monitored 24 hours 
a day by anywhere from 2-8 people; police sleep outside their door at 
night and keep watch there during the day.
    Phone calls to my stepmother are monitored, making it difficult for 
her to communicate with me and with other people. In addition, the 
position that my stepmother has at Minzu University was always renewed 
periodically. But now we are seriously worried that when her current 
contract expires in May she may well lose her position due to my 
father's political imprisonment.
    My brothers are also suffering gravely from this. The oldest, who 
is more aware than his brother as to what has happened, has become 
withdrawn and introverted. Having witnessed our father being taken 
away, he now has nightmares.
    Finally, there are some students of my father. I am proud to say 
that my father was widely admired by his students, many of whom saw his 
work as vital and necessary. And now several of them too have been 
arrested and imprisoned, with very little known as to their 
whereabouts.
    I mention these last facts to give you an idea of the kind of 
collective punishment that the arrest of dissidents entails. But the 
core matter here is that China has imprisoned a dissident intellectual 
whose sole ``crime,'' in spite of the trumped up charges that are being 
thrown around, was simply advocating human rights and equitable 
treatment for the Uyghur people. I am heartened that the Congressional-
Executive Commission on China has taken an interest in my father's case 
and is seeking to learn more about the facts of his imprisonment.
    I thank you for allowing me to speak to you today.
                                 ______
                                 

                    Prepared Statement of Teng Biao

                             APRIL 8, 2014

    I am a human rights lawyer from China. My name is Teng Biao.
    In March, just before First Lady Michelle Obama gave a talk at the 
prestigious Peking University during her visit to China, I tweeted to 
draw her attention to the plight of two remarkable Peking University 
alumni: Cao Shunli and Xu Zhiyong.
    On March 14, human rights activist Cao Shunli died in detention 
after being tortured and then denied medical treatment.
    The last time I saw Ms. Cao was in Hong Kong at an international 
human rights workshop in early 2013. She had been released for the 
second time from detention in a laojiaosuo, a Reeducation Through Labor 
camp, and had immediately jumped back into the fray of defending human 
rights. In September last year the authorities at the Beijing 
International Airport where she was en route to Geneva to participate 
in the UN Human Rights Council Universal Periodic Review prevented Cao 
Shunli from leaving China. She was then abducted and detained for the 
third time, but this time, she did not come out alive.
    For the past ten years, Dr. Xu Zhiyong has been one of the most 
prominent figures in the Chinese civil rights movement.
    The last time I was in contact with him was a few days before he 
was formally arrested. He sent me a record of his conversation with the 
secret police. The government gave him several opportunities to 
compromise: if he agreed to abandon the New Citizens Movement he would 
be spared from incarceration. Dr. Xu refused outright to compromise.
    He said, if fighting for citizen's rights and freedom is a crime, 
he was willing to pay the price. He prayed to God with these words: ``I 
love mankind, and for this love I am willing to face death.''
    Dr. Xu was sentenced to four years in jail. He was charged with 
``disturbing public order'' while publicly campaigning for equal rights 
of the children of migrant labours in cities, and demanding officials 
disclose assets in order to combat corruption. Several dozen supporters 
of Xu Zhiyong and the New Citizens Movement have been arrested and will 
soon be put on trial.
    Incomplete statistics reveal that since March 31 last year, at 
least 200 rights advocates have been arrested, including human rights 
activists like Guo Feixiong, Zhang Lin, and Zhao Changqing who have 
been imprisoned numerous times for political reasons since 1989; rights 
lawyers like Ding Jiaxi; Zhang Shaojie, a pastor at a Christian Church 
in Henan province, and Ilham Tohti, a Uighur scholar who has been a 
long-time advocate of peaceful dialogue between Uighurs and Han 
Chinese.
    It can be confirmed that during this crackdown, many human rights 
activists have been subjected to inhumane torture while incarcerated. 
People now released who were tortured include Ding Hongfen, Shen Jun, 
Song Ze; while Li Biyun, Huang Wenxun, Yuan Fengchu, Yuan Xiaohua, Liu 
Ping. Wei Zhongping, Li Sihua and others continue to be detained. All 
of these people were incarcerated for participating in peaceful and 
legal human rights activities. Five days after Cao Xunli died, the 43-
year-old Tibetan political prisoner Goshul Lobsang was tortured to 
death in Kanlho.
    To exacerbate the atmosphere of fear the authorities are targeting 
the family and friends of rights defenders: Liu Xia, the wife of Nobel 
Peace Prize laureate Liu Xiaobo has been under house arrest for many 
years; the families of many Tibetan self-immolators have been 
imprisoned, like 31 year-old Kunchok Wangmo of Ngaba (Chinese: Aba) 
Tibetan and Qiang Autonomous Prefecture, Sichuan, whose husband was 
framed for a crime and sentenced to death.
    Many prisoners of conscience are connected to the New Citizens 
Movement. The earlier incarnation of the New Citizens Movement was a 
group called Gongmeng, or Open Constitution Initiative, founded by Xu 
Zhiyong and myself in 2003. The Open Constitution Initiative focussed 
on issues like freedom of speech, freedom of religious belief, 
opposition to torture, and opposition to the unfair household 
registration system. It actively joined in a large number of human 
rights cases such as those involving Gao Zhisheng and Chen Guangcheng, 
as well as producing an investigative report on the 14 March 2008 
unrest in Tibet.
    The New Citizens Movement advocates ``Freedom, Justice and Love'' 
to encourage ordinary people to fight for citizens rights and unite 
human rights advocates around the country. Its activities include: 
promoting educational equality, pressing officials to disclose their 
assets, and arranging ``same-city dinner gathering''. By using on-line 
mobilisation, open letter writing campaigns, signature campaigns, 
leaflet distribution, pro bono litigation, street speeches, and 
peaceful protests, The New Citizens Movement has brought the Rights 
Defence Movement to new heights.
    Why is the Chinese government savagely suppressing the Rights 
Defence Movement and individual rights activists?
    Since its inception in 2003, the Rights Defence Movement has made 
great progress. The earlier ground work of and the sacrifices made by 
activists, and the intensification of social conflicts reveal several 
trends: 1) Rights activists are coming out from cyberspace activism 
into real-world activism. 2) The movement is growing beyond individual 
cases to becoming active on the streets. 3) The activists are moving 
away from legal appeals towards political appeals. 4) Individual 
activists are gradually joining together creating a semblance of 
organisation. Examples are: Charter 08, the Chinese Human Rights 
Lawyers Group and the New Citizens Movement.
    The authorities sense an obvious threat as the rights movement has 
progressed towards the New Citizens Movement. However, the rulers of 
China are unwilling to engage in dialogue and absolutely refuse to 
relinquish their totalitarian privileges. Under the guise of 
maintaining stability above all, the authorities brutally punish anyone 
who in their mind dares to threaten their legitimacy to rule China.
    The government's heavy-handed crackdown will of course frighten 
some people, but cannot resolve social problems in Chinese society. On 
the contrary, suppression will only intensify conflicts and problems. 
Many rules and regulations in China directly violate people's dignity 
and freedom. The fissures in our society will become wider and calls 
for rights and democracy will become more intense if we do not make 
substantial adjustments to the country's legal and political systems. 
More and more people are standing up to demand rights and democracy.
    For example, a few days ago, thousands of residents in Maoming, in 
Guangdong Province in southern China, risked their lives to take to the 
streets to protest plans for a paraxylene (PX) project which possess 
serious pollution risks.
    Also recently, in Jiansanjiang in Heilongjiang Province in northern 
China, a number of lawyers were detained by local police for 
investigating a ``Legal Education Center,'' informally known as a 
``brainwashing class,'' which is used to imprison innocent citizens 
without any legal procedure.
    Three of these lawyers were roped and hung up while police punched 
and beat them with police batons.
    Why did lawyers and citizens stand up and take on these 
``brainwashing classes''? Because they are modern-day concentration 
camps. Countless Falungong practitioners have been sent by the 
authorities to ``brainwashing classes'' or Re-education Through Labor 
camps. At least 3,000 people have been tortured to death in such places 
since 1999.
    As a result of fighting for freedom, many human rights activists 
lose their own freedom. I recall the time in 2011 when the secret 
police in Beijing kidnapped me and held me in a secret location for 70 
days, during which time I was subject to tortures including sleep 
deprivation, being punched and kicked, and being held in solitary 
confinement. While the secret police used violence against me, they 
frankly declared, ``Don't talk to us about the law. No one can help you 
now.''
    But I never for a moment gave up hope. My longing for justice and 
freedom gave me strength. Another source of strength was my firm belief 
that my friends in jail and on the outside would continue to fight, 
because we share the same dream for freedom. I firmly believe that our 
numbers will grow and that our calls for freedom will ultimately stun 
this savage totalitarian regime to its core.
    I also firmly believe that outside China, in the USA, in Europe and 
in every corner of the world where the light of freedom shines, while 
the struggle for human dignity continues, we will not be forgotten.
    I greatly admire the members of Congress and the American 
government for your efforts in advocating freedom and human rights. 
However, the international pressure on violators of human rights around 
the world is far from adequate. The Chinese government not only 
manipulates the international human rights system, it also makes use of 
its economic, military and political influence in order to blackmail 
great democratic nations. It threatens not to purchase Boeing jets if 
America criticises the Chinese human rights situation. It threatens not 
to purchase Airbuses if European leaders meet with the Dalai Lama. At 
many international conferences Chinese human rights has become ``the 
elephant in the room''.
    How much economic benefit can we sacrifice for the freedom of 
humanity? When people make this calculation, they are already on the 
wrong track. Oppressors of freedom will not desist, they will not 
respect national boundaries, they will not abide by international 
principles they have promised to follow.
    The oppressors of freedom are becoming more powerful by taking 
advantage of the internet and economic globalisation, by taking 
advantage of flawed international institutions (the most egregious 
violators of human rights have colluded to infiltrate the UN Human 
Rights Commission, and non-democratic regimes in the UN are betraying 
the interests of their own peoples as well as universal human rights), 
by taking advantage of the head-in-the-sand policies of democratic 
countries and ``the silence of the good''. By the time the free world 
becomes aware of the need to protect freedom, I fear it may well be too 
late.
                                 ______
                                 

                  Prepared Statement of Donald Clarke*

   The Significance of Recent Detentions for the Rule of Law in China

                             APRIL 8, 2014

Introduction
    In my testimony today, I will look at two recent detentions in 
China and discuss their significance for the rule of law in China. The 
detentions are those of Xu Zhiyong and Ilham Tohti. I believe that the 
main significance of these detentions lies not in the substance of the 
charges against them or the sentences, but rather in the process that 
accompanied the detentions. It is not news that the Chinese government 
persecutes those it deems its enemies, so these cases aren't especially 
significant in that respect. But unlike in some other cases, in these 
cases the Chinese government has for the most part acted in such a way 
that it is hard to find clear and unambiguous violations of Chinese 
procedural rules. Whether it has done so depends on the interpretation 
of vague concepts such as whether a case is ``complex''.
    Thus, while the rule of law has no place in the investigation and 
prosecution of Bo Xilai and now Zhou Yongkang, both of whom were and 
are respectively detained under a Party disciplinary procedure that in 
legal terms amounts to the crime of unlawful detention, it seems that 
the authorities are paying more attention to following their own rules 
in other cases. But those rules are so vague and elastic that even when 
followed, they offer little protection to defendants. While ``rule of 
law'' is an appealing slogan because it seems to command such broad 
adherence, it does so precisely because it does not necessarily dictate 
substantively just results. It is better than no rule of law, as Bo 
Xilai might now ruefully admit. But it is not synonymous with the 
protection of human rights. It is a necessary but not a sufficient 
condition.

Xu Zhiyong
    Xu Zhiyong's current troubles began when he was placed under an 
informal kind of ``house arrest'' on April 12, 2013. This meant that he 
was effectively a prisoner in his own home. I call this kind of 
detention ``informal'' because while Chinese law has a form of house 
arrest called ``residential surveillance,'' it's not clear that that 
procedure was specifically invoked.
    His formal detention began on July 16, 2013.\1\ That date is 
important because itunambiguously started the clock in China's Criminal 
Procedure Law (CPL) ticking. Detention (juliu) in China is a different 
concept from arrest (daibu); whereas in the United States we use the 
term ``arrest'' to refer to any situation in which a suspect is not 
free to leave, the same English word in the Chinese context is used to 
translate a formal stage of the criminal process that can happen long 
after a suspect has been locked up.
---------------------------------------------------------------------------
    \1\ See China Detains Activist Xu Zhiyong, BBC News, July 17, 2013, 
http://bbc.in/1mV3zEA.
---------------------------------------------------------------------------
    Detention without arrest is supposed to happen only in a limited 
set of essentially emergency circumstances (CPL 61); where those 
emergency circumstances are not present, the police are supposed to get 
approval for an arrest before physically detaining the suspect. In Xu's 
case, it is fair to say that none of those emergency circumstances 
existed.
    After detention, the police have three days, extendable to seven 
days in special circumstances, to request the approval of arrest by the 
procuracy, the body in charge of prosecutions. In complex cases 
involving, for example, multiple offenses, the period can be as long as 
thirty days (CPL 89). The procuracy has seven days in which to decide 
to approve or disapprove the arrest. In Xu's case, the indictment says 
he was formally arrested on August 22, 2014.\2\ This is exactly thirty 
days plus seven days following hisformal detention; apparently someone 
in charge was keeping a close eye on the calendar. To call this arrest 
lawful, however, we would have to be satisfied that the term during 
which he was under house arrest prior to his formal detention was 
lawful.
---------------------------------------------------------------------------
    \2\ The indictment is available in English translation at Xu 
Zhiyong's Indictment http://www.hrichina.org/en/citizens-square/xu-
zhiyongs-indictment.
---------------------------------------------------------------------------
    The closest thing China has to house arrest is an institution 
called ``supervised residence'' (jianshi juzhu) (CPL 72). This is the 
only lawful rubric under which Xu could have been confined to his 
residence as he was prior to his formal detention. But supervised 
residence requires, among other conditions that arguably were not 
present here, that the conditions for arrest already be deemed met. In 
that case, it is impossible to justify under Chinese law Xu's 
subsequent 37 days in formal detention prior to his arrest, since the 
authorities must have decided he was arrestable as early as April 
12.David A. Weaver Research Professor of Law, George Washington 
University Law School, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f0b0c030e1d040a2f030e184108181a410a0b1a41">[email&#160;protected]</a> I wish to thank Fu Hualing 
and Joshua Rosenzweig for very helpful comments on an earlier draft.
    Xu was arrested on a charge of ``gathering crowds to disrupt order 
in a public place'' (Criminal Law 291). Once a suspect is arrested, the 
authorities have two months--extendable to three with appropriate 
permission--to keep him in custody while they investigate (CPL 154). 
This time limit can be extended two months by provincial authorities in 
complex cases (CPL 156). Even this five-month time limit can be 
extended indefinitely by action of the Standing Committee of the 
National People's Congress (CPL 155).
    Thus, he should have been released or put on trial by October 22, 
2013, unless certain very unusual circumstances applied to his case. 
But Xu was not put on trial until January 22, 2014, exactly five months 
after his formal arrest. This suggests that the generous time limits 
afforded by Articles 154 and 156 of the CPL were used to the full--
something that should hardly have been necessary, given the Foreign 
Ministry's insistence that Xu's was ``an ordinary criminal case.'' \3\
---------------------------------------------------------------------------
    \3\ See Jerome Cohen, Xu Zhiyong's Trial Makes a Mockery of 
Beijing's Pledge to Enforce Rule of Law,  South China Morning Post, 
Jan. 29, 2014, available at http://bit.ly/MjWYE5.
---------------------------------------------------------------------------
    The excessive period of pre-arrest custody was not the only flaw in 
the proceedings. The trial itself was marred by numerous violations of 
the letter and spirit of Chinese law. First, the trial was not in any 
real sense open, despite the lack of any grounds under Chinese law for 
closing it. Second, the defense was not permitted to cross-examine any 
witnesses for the prosecution, despite the rule providing for cross-
examination or at least some way to challenge evidence in the CPL. It 
should be noted that Xu's case is not unique in that regard; the CPL's 
rule is honored far more in the breach than in the observance. Third, 
Xu was not permitted to call his own witnesses.\4\
---------------------------------------------------------------------------
    \4\ See Andrew Jacobs & Chris Buckley, China Sentences Xu Zhiyong, 
Legal Activist, to 4 Years in Prison, N.Y. Times, Jan. 26, 2014, 
available at http://nyti.ms/1hQDL98.
---------------------------------------------------------------------------
    To protest these and other problems, Xu and his counsel elected to 
remain silent during the hearing. At the end, Xu attempted to make a 
statement, but was cut off by the judge.\5\ In the end, he was 
sentenced to four years of imprisonment.
---------------------------------------------------------------------------
    \5\ See id.
---------------------------------------------------------------------------
Ilham Tohti
    Ilham Tohti was detained on Jan. 15, 2014.\6\ He was apparently 
formally arrested on Feb. 20, 2014 on a charge of separatism (fenlie 
guojia).\7\ This period of time between detention and arrest could fit 
within that allowed under Chinese law \8\ if his case is complex. So 
far, the time between arrest and trial has not been exceeded; the 
authorities are well within the permitted time period.
---------------------------------------------------------------------------
    \6\ See China: Uighur Scholar Detained, N.Y. Times, Jan. 16, 2014, 
available at http://nyti.ms/PBBXXp.
    \7\ See Bei Feng, Yilihamu Tuheti Bei Daibu [Ilham Tohti Arrested], 
Feb. 25, 2014, http://canyu.org/n85273c6.aspx. This source reproduces 
what purports to be a notice issued to Tohti's spouse. The notice is 
dated Feb. 20, 2014.
    The crime of separatism is listed in the first paragraph of Art. 
103 of the Criminal Law. The second paragraph lists a lesser crime of 
``inciting separatism'' (shandong fenlie guojia). Under Art. 113 of the 
Criminal Law, separatism, but not inciting separatism, is punishable in 
some circumstances by death. The New York Times reported that Tohti was 
formally arrested on Feb. 26 and charged with ``inciting separatism,'' 
see Andrew Jacobs, China Charges Scholar with Inciting Separatism, N.Y. 
Times, Feb. 26, 2014, available at http://nyti.ms/1hli1lg, but Bei 
Feng, supra, unless the document it purports to cite is spurious, 
contradicts this.
    \8\ Chinese law allows a 24-hour period of ``summons'' before 
formal detention, then up to thirty days before the police must request 
an arrest, and then seven days for the procuratorate to make a 
decision, for a total of 38 days following actual detention.
---------------------------------------------------------------------------
    Nevertheless, the state has deprived Tohti of his rights under 
Chinese law in other ways. On March 4, 2014, his lawyer, Li Fangping, 
stated that he was no longer allowed to communicate with Tohti.\9\ 
Apparently the reason given was that state secrets wereinvolved. 
Unfortunately, the Chinese government has used this excuse so often in 
circumstances where it is highly implausible that it no longer carries 
any credibility. Occasionally the police have claimed that conditions 
of detention and interrogation are themselves state secrets, but if 
this is to constitute a reason for depriving defendants of their right 
to communicate with a lawyer, then the right is meaningless for all 
suspects in detention.
---------------------------------------------------------------------------
    \9\ See Massoud Hayoun, China, Uyghurs May Have Lost Middle Way in 
Mounting Ethnic Tensions, Al Jazeera America, Mar. 4, 2014, http://
alj.am/1ejnipp.
---------------------------------------------------------------------------
Analysis
    The point of this detailed history of the Xu and Tohti cases is not 
to condemn the Chinese government for violating its own rules. It is to 
further our understanding of the significance of these cases for the 
rule of law in China.
    There are two lessons here. First, following legal procedures is 
better than not following legal procedures, but it does not necessarily 
produce justice. We have to ask what the laws say and how they were 
produced. In Chinese criminal procedure, the rules are heavily weighted 
in favor of the state, and there is no neutral process to challenge the 
state's interpretation in its own favor of vague and ambiguous 
concepts.
    The second lesson is that the Chinese government retains its 
ambivalent attitude toward the values of the rule of law. As I have 
noted, in many cases the government wishes to claim the mantle of 
fidelity to law; it does so sometimes by making the law vague and 
flexible enough to achieve its purposes, and sometimes simply by 
falsely claiming to be following law. One can call this hypocrisy, but 
hypocrisy is after all the compliment that vice pays to virtue, and it 
reflects an acknowledgment of the value of process protections.
    At other times, however, the state does not seem to be trying even 
to appear to offer fair proceedings, or at least proceedings that 
follow its own rules. This is what we see in the trial proceedings of 
Xu Zhiyong and will probably see in Ilham Tohti's trial. While other 
authoritarian states often try to turn political issues into legal 
issues in an attempt to neutralize them,\10\ the Chinese state 
sometimes seems to go out of its way to demonstrate that ostensibly 
legal issues are really political issues. Thus, it is really not clear 
whether it is reasonable to expect at least a slow movement toward the 
values of process.
---------------------------------------------------------------------------
    \10\ See generally Rule by Law: The Politics of Courts in 
Authoritarian Regimes (Tom Ginsburg & Tamir Moustafa eds. 2008).
---------------------------------------------------------------------------
    Perhaps equally significant for prospects for a process-oriented 
rule of law in China is the fact that the government's indifference to 
the values of process seems to be shared by at least some of its 
critics. Recently five Chinese legal scholars were brave enough to post 
a public analysis of the flaws in the case against Xu Zhiyong.\11\ Yet 
their analysisconsisted entirely of a defense of Xu against the 
substance of the charges made against him. They argued that he had not 
actually created a disturbance of public order, or that the public 
spaces in question were special. These kinds of arguments might be 
useful in a court before a neutral judge, but since they are basically 
expressions of opinion about what the law means or ought to mean, they 
lack force. The scholars made no objections to any of the procedural 
problems in the case. As I have pointed out, the pre-trial procedural 
flaws are not clear-cut. But they are certainly not harder to criticize 
than the substantive charges, so it is unfortunate that this critique 
ignored procedural problems both before and during the trial.
---------------------------------------------------------------------------
    \11\ See Gan Peizhong Deng Wuwei Faxue Jiaoshou Fabiao Lunzheng Xu 
Zhiyong Wuzui de Falu Yijian Shu [Gan Peizhong and Four Other Law 
Professors Issue Legal Opinion Arguing that Xu Zhiyong Is Innocent], 
Boxun.com, Jan. 27, 2014, http://bit.ly/1kAgVBR (presenting text of 
letter issued by Gan Peizhong, Peng Bing, Yao Huanqing, Wang Yong, and 
He Haibo).
---------------------------------------------------------------------------
    One advantage of a procedural critique is that the government can 
be criticized without ever questioning the validity of its stated laws 
and policies. Thus, it is ironic that even the government's critics may 
share its view that it is the substance of the law that counts, not 
procedure, even though the best way to advance the rule of law in the 
current political climate might be to focus on procedure.

    * David A. Weaver Research Professor of Law, George Washington 
University Law School, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5135323d30233a34113d30267f3626247f3435247f">[email&#160;protected]</a> I wish to thank Fu Hualing 
and Joshua Rosenzweig for very helpful comments on an earlier draft.
                                 ______
                                 

                Prepared Statement of Sophie Richardson

                             APRIL 8, 2014

    Rapid socio-economic change in China has been accompanied by 
relaxation of some restrictions on basic rights, but the government 
remains an authoritarian one-party state. It places arbitrary curbs on 
expression, association, assembly, and religion; prohibits independent 
labor unions and human rights organizations; and maintains Party 
control over all judicial institutions.
    The government censors the press, the Internet, print publications, 
and academic research, and justifies human rights abuses as necessary 
to preserve ``social stability.'' It carries out involuntary population 
relocation and rehousing on a massive scale, and enforces highly 
repressive policies in ethnic minority areas in Tibet, Xinjiang, and 
Inner Mongolia. Though primary school enrollment and basic literacy 
rates are high, China's education system discriminates against children 
and young people with disabilities. The government obstructs domestic 
and international scrutiny of its human rights record, insisting it is 
an attempt to destabilize the country.
    At the same time, citizens are increasingly prepared to challenge 
authorities over volatile livelihood issues, such as land seizures, 
forced evictions, environmental degradation, miscarriages of justice, 
abuse of power by corrupt cadres, discrimination, and economic 
inequality. Official and scholarly statistics, based on law enforcement 
reports, suggest there are 300-500 protests each day, with anywhere 
from ten to tens of thousands of participants. Despite the risks, 
Internet users and reform-oriented media are aggressively pushing 
censorship boundaries by advocating for the rule of law and 
transparency, exposing official wrongdoing, and calling for political 
reforms.
    Civil society groups and advocates continue to slowly expand their 
work despite their precarious status, and an informal but resilient 
network of activists monitors and documents human rights cases as a 
loose national ``weiquan'' (rights defense) movement. These activists 
endure police monitoring, detention, arrest, enforced disappearance, 
and torture.
    The Xi Jinping administration formally assumed power in March, and 
proposed several reforms to longstanding policies, including abolishing 
one form of arbitrary detention, known as re-education through labor 
(RTL), and changes to the household registration system. It staged 
high-profile corruption investigations, mostly targeting political 
rivals. But it also struck a conservative tone, opposing constitutional 
rule, press freedom, and ``western-style'' rule of law, and issuing 
harsher restrictions on dissent, including through two legal documents 
making it easier to bring criminal charges against activists and 
Internet critics.
    Bo Xilai, once a rising political star, was sentenced to life 
imprisonment in September after a show trial that captured public 
attention but fell short of fair trial standards and failed to address 
widespread abuses of power committed during his tenure in Chongqing.
Human Rights Defenders
    China's human rights activists often face imprisonment, detention, 
torture, commitment to psychiatric facilities, house arrest, and 
intimidation.
    One of the most severe crackdowns on these individuals in recent 
years occurred in 2013, with more than 50 activists put under criminal 
detention between February and October. Human rights defenders are 
detained for ill-defined crimes ranging from ``creating disturbances'' 
to ``inciting subversion'' for organizing and participating in public, 
collective actions. In July, authorities detained Xu Zhiyong, who is 
considered an intellectual leader of the New Citizens Movement, a loose 
network of civil rights activists whose efforts include a nationwide 
campaign that calls on public officials to disclose their assets.
    In September, Beijing-based activist Cao Shunli was detained after 
she was barred from boarding a flight to Geneva ahead of the United 
Nations Human Rights Council (HRC) review of China on October 22. Cao 
is known for pressing the Chinese government to include independent 
civil society input into the drafting of China's report to the HRC 
under a mechanism called Universal Periodic Review (UPR). Another 
activist, Peng Lanlan, was released in August after she spent one year 
in prison for ``obstructing official business'' for her role in the 
campaign.
    Nobel Peace Prize winner Liu Xiaobo continues his 11-year jail term 
in northern Liaoning province. His wife Liu Xia continues to be 
subjected to unlawful house arrest. In August, Liu Xiaobo's brother-in-
law, Liu Hui, was given an 11-year sentence on fraud charges; it is 
widely believed the heavy sentence is part of broader effort to punish 
Liu Xiaobo's family.

Legal Reforms
    While the government rejects judicial independence and prohibits 
independent bar associations, progressive lawyers and legal scholars 
continue to be a force for change, contributing to increasing popular 
legal awareness and activism.
    The Chinese Communist Party maintains authority over all judicial 
institutions and coordinates the judiciary's work through its political 
and legal committees. The Public Security Bureau, or police, remains 
the most powerful actor in the criminal justice system. Use of torture 
to extract confessions is prevalent, and miscarriages of justice are 
frequent due to weak courts and tight limits on the rights of the 
defense.
    In November, the government announced its intention to abolish re-
education through labor (RTL), a form of arbitrary detention in which 
the police can detain people for up to four years without trial. There 
were about 160,000 people in about 350 camps at the beginning of the 
year, but numbers dwindled rapidly as the police stopped sending people 
to RTL. The official press, however, reported that some of these 
facilities were being converted to drug rehabilitation centers, another 
form of administrative detention. At time of writing it was unclear 
whether the government would fully abolish administrative detention as 
a way to deal with minor offenders, or whether it would instead 
establish a replacement system that continued to allow detention 
without trial.
    China continues to lead the world in executions. The exact number 
remains a state secret, but experts estimate it has decreased 
progressively from about 10,000 per year a decade ago to less than 
4,000 in recent years.

Freedom of Expression
    Freedom of expression deteriorated in 2013, especially after the 
government launched a concerted effort to rein in micro-blogging. The 
government and the Party maintain multiple layers of control over all 
media and publications.
    Internet censors shape online debate and maintain the ``Great 
Firewall,'' which blocks outside content from reaching Internet users 
in China. Despite these restrictions, the Internet, especially 
microblog services known as ``weibo'' and other social media tools, are 
popular as a relatively free space in which China's 538 million users 
can connect and air grievances. However, those who breach sensitive 
taboos are often swiftly identified and their speech deleted or 
disallowed; some are detained or jailed.
    In January, Southern Weekly, a Guangzhou-based newspaper known for 
its boundary-pushing investigative journalism, was enveloped in a 
censorship row after the paper's editors found that their New Year's 
special editorial was rewritten on the censors' orders and published 
without their consent. The original editorial had called for political 
reform and respect for constitutionally guaranteed rights, but the 
published version instead praised the Chinese Communist Party. The
    paper's staff publicly criticized the provincial top censor, called 
for his resignation and went on a strike; the paper resumed printing a 
week later.
    In May, the General Office of the Chinese Communist Party's Central 
Committee issued a gag order to universities directing them to avoid 
discussions of ``seven taboos,'' which included ``universal values'' 
and the Party's past wrongs, according to media reports.
    Since August, authorities have waged a campaign against ``online 
rumors.'' The campaign has targeted influential online opinion leaders 
and ordinary netizens. The authorities have detained hundreds of 
Internet users for days, closed down over 100 ``illegal'' news websites 
run by citizen journalists, and detained well-known liberal online 
commentator Charles Xue.
    Also in August, the government official in charge of Internet 
affairs warned Internet users against breaching ``seven bottom lines,'' 
including China's ``socialist system,'' the country's ``national 
interests,'' and ``public order.'' In September, the Supreme People's 
Court and the Supreme People's Procuratorate (state prosecutor) issued 
a new judicial interpretation applying four existing criminal 
provisions to Internet expression, providing a more explicit legal 
basis for charging Internet users.

Freedom of Religion
    Although the constitution guarantees freedom of religion, the 
government restricts religious practices to officially approved 
mosques, churches, temples, and monasteries organized by five 
officially recognized religious organizations. It audits the 
activities, employee details, and financial records of religious 
bodies, and retains control over religious personnel appointments, 
publications, and seminary applications.
    Unregistered spiritual groups such as Protestant ``house churches'' 
are deemed unlawful and subjected to raids and closures; members are 
harassed and leaders are detained and sometimes jailed.
    The government classifies Falun Gong, a meditation-focused 
spiritual group banned since July 1999, as an ``an evil cult'' and 
arrests, harasses, and intimidates its members. After releasing a new 
documentary about a labor camp in which Falun Gong practitioners were 
detained and tortured, filmmaker and photographer Du Bin was detained 
in May. He was released after five weeks in detention.
    In April, a court in Henan province sentenced seven house church 
leaders to between three and seven years in prison on charges of 
``using a cult to undermine law enforcement'' evidence suggested they 
had only attended meetings and publicized church activities.

Health and Disability Rights
    The government has developed numerous laws, regulations, and action 
plans designed to decrease serious environmental pollution and related 
threats to public health, but the policies are often not implemented.
    In February, a lawyer's request under the Open Government 
Information Act to reveal soil contamination data was rejected; 
according to the authorities, such data was a ``state secret.'' Also in 
February, after years of denial and inaction, the Ministry of 
Environmental Protection finally acknowledged the existence of ``cancer 
villages,'' those with abnormally high cancer rates. Victims had long 
pressed for justice and compensation and domestic media had written 
extensively on the issue.
    Despite a review in 2012 under the Convention on the Rights of 
Persons with Disabilities (CRPD), protections of the rights of persons 
with disabilities remain inadequate. These individuals face serious 
discrimination in employment and education, and some government 
policies institutionalize discrimination.
    In February, the State Council's Legislative Affairs Office 
announced amendments to the 1994 Regulations of Education of Persons 
with Disabilities in China. While welcome, the amendments do not ensure 
that students with disabilities can enroll in mainstream schools or 
mandate appropriate classroom modifications (``accommodations'') 
enabling them to participate fully in such schools.
    In May, China's first Mental Health Law came into effect. It filled 
an important legal void but does not close loopholes that allow 
government authorities and families to detain people in psychiatric 
hospitals against their will. In July, after the law came into effect, 
Gu Xianghong was detained for five weeks in a Beijing psychiatric 
hospital for petitioning the authorities about her grievances.

Women's Rights
    Women's reproductive rights and access to reproductive health 
remain severely curtailed under China's population planning 
regulations. While the government announced in November that Chinese 
couples will now be allowed two children if either parent was a single 
child, the measure does not change the foundations of China's 
government-enforced family planning policy, which includes the use of 
legal and other coercive measures--such as administrative sanctions, 
fines, and coercive measures, including forced abortion--to control 
reproductive choices.
    The government's punitive crackdowns on sex work often lead to 
serious abuses, including physical and sexual violence, increased risk 
of disease, and constrained access to justice for the country's 
estimated 4 to 10 million sex workers, most of whom are women. Sex 
workers have also documented abuses by public health agencies, such as 
coercive HIV testing, privacy infringements, and mistreatment by health 
officials.
    In January, the Supreme People's Court upheld a death sentence 
against Li Yan, a woman convicted of murdering her physically abusive 
husband. Domestic violence is not treated as a mitigating factor in 
court cases.
    In May, Ye Haiyan, China's most prominent sex worker rights 
activist, was detained by police for several days after being assaulted 
at her home in Guangxi province over her exposure of abusive conditions 
in local brothels.
    Although the government acknowledges that domestic violence, 
employment discrimination, and gender bias are widespread, it limits 
the activities of independent women's rights groups working on these 
issues by making it difficult for them to register, monitoring their 
activities, interrogating their staff, and prohibiting some activities.

Migrant and Labor Rights
    The official All-China Federation of Trade Unions (ACFTU) continued 
to be the only legal representative of workers; independent labor 
unions are forbidden.
    Despite this limitation, workers have become increasingly vocal and 
active in striving for better working conditions across the country, 
including by staging protests and strikes. In September, Shenzhen dock 
workers went on strike to demand better pay and working conditions. Ten 
days later, the workers accepted a government-brokered deal that met 
some of their demands.
    In May, the official All-China Women's Federation issued a new 
report revealing that the number of migrant children, including those 
living with their parents in urban areas and those ``left behind'' in 
rural areas, had reached 100 million by 2010. Migrant workers continue 
to be denied urban residence permits, which are required to gain access 
to social services such as education. Many such workers leave their 
children at home when they migrate so that the children can go to 
school, rendering some vulnerable to abuse.
    Although China has numerous workplace safety regulations, 
enforcement is lax, especially at the local level. For example, in 
June, a fire at a poultry farm killed 121 workers in Jilin province. 
Subsequent investigations revealed that the local fire department had 
just days before the fire issued the poultry farm a safety certificate 
even though it failed to meet a number of standards.
Sexual Orientation and Gender Identity
    The Chinese government classified homosexuality as a mental illness 
until 2001. To date there is still no law protecting people from 
discrimination on the basis of sexual orientation or gender identity, 
which remains common especially in the workplace.
    Same-sex partnership and marriage are not recognized under Chinese 
law. In February, a lesbian couple attempted to register at the 
marriage registry in Beijing but their application was rejected.
    On May 17, the International Day against Homophobia, Changsha city 
authorities detained Xiang Xiaohan, an organizer of a local gay pride 
parade, and held him for 12 days for organizing an ``illegal march.'' 
In China, demonstrations require prior permission, which is rarely 
granted.

Tibet
    The Chinese government systematically suppresses political, 
cultural, religious and socio-economic rights in Tibet in the name of 
combating what it sees as separatist sentiment. This includes 
nonviolent advocacy for Tibetan independence, the Dalai Lama's return, 
and opposition to government policy. At time of writing, 123 Tibetans 
had self-immolated in protest against Chinese policies since the first 
recorded case in February 2009.
    Arbitrary arrest and imprisonment remains common, and torture and 
ill-treatment in detention is endemic. Fair trials are precluded by a 
politicized judiciary overtly tasked with suppressing separatism.
    Police systematically suppress any unauthorized gathering. On July 
6, police opened fire in Nyitso, Dawu prefecture (Ch. Daofu), on a 
crowd that had gathered in the countryside to celebrate the Dalai 
Lama's birthday. Several people were injured. The government censored 
news of the event.
    In an apparent effort to prevent a repetition of the popular 
protests of 2008, the government in 2013 maintained many of the 
measures it introduced during its brutal crackdown on the protest 
movement--a massive security presence composed largely of armed police 
forces, sharp restrictions on the movements of Tibetans within the 
Tibetan plateau, increased controls on monasteries, and a ban on 
foreign journalists in the Tibetan Autonomous Region (TAR) unless part 
of a government-organized tour. The government also took significant 
steps to implement a plan to station 20,000 new officials and Party 
cadres in the TAR, including in every village, to monitor the political 
views of all residents.
    The government is also subjecting millions of Tibetans to a mass 
rehousing and relocation policy that radically changes their way of 
life and livelihoods, in some cases impoverishing them or making them 
dependent on state subsidies, about which they have no say. Since 2006, 
over two million Tibetans, both farmers and herders, have been 
involuntarily ``rehoused''--through government-ordered renovation or 
construction of new houses--in the TAR; hundreds of thousands of 
nomadic herders in the eastern part of the Tibetan plateau have been 
relocated or settled in ``New Socialist Villages.''

Xinjiang
    Pervasive ethnic discrimination, severe religious repression, and 
increasing cultural suppression justified by the government in the name 
of the ``fight against separatism, religious extremism, and terrorism'' 
continue to fuel rising tensions in the Xinjiang Uyghur Autonomous 
Region.
    In 2013, over one hundred people--Uyghurs, Han, and other 
ethnicities--were killed in various incidents across the region, the 
highest death toll since the July 2009 Urumqi protests. In some cases, 
heavy casualties appear to have been the result of military-style 
assaults on groups preparing violent attacks, as in Bachu prefecture on 
April 23, and in Turfan prefecture on June 26. But in other cases 
security forces appear to have used lethal force against crowds of 
unarmed protesters.
    On June 28, in Hetian prefecture, police tried to prevent 
protesters from marching toward Hetian municipality to protest the 
arbitrary closure of a mosque and the arrest of its imam, ultimately 
shooting into the crowd and injuring dozens of protesters. On August 8, 
in Aksu prefecture, police forces prevented villagers from reaching a 
nearby mosque to celebrate a religious festival, eventually using live 
ammunition and injuring numerous villagers. After each reported 
incident the government ritualistically blames ``separatist, religious 
extremist, and terrorist forces,'' and obstructs independent 
investigations.
    Arbitrary arrest, torture, and ``disappearance'' of those deemed 
separatists are endemic and instill palpable fear in the population. In 
July, Ilham Tohti, a Uyghur professor at Beijing's Nationalities 
University published an open letter to the government asking for an 
investigation into 34 disappearance cases he documented. Tohti was 
placed under house arrest several times and prevented from traveling 
abroad.
    The government continues to raze traditional Uyghur neighborhoods 
and rehouse families in planned settlements as part of a comprehensive 
development policy launched in 2010. The government says the policy is 
designed to urbanize and develop Xinjiang.

Hong Kong
    Despite the fact that Hong Kong continues to enjoy an independent 
judiciary, a free press, and a vocal civil society, freedoms of the 
press and assembly have been increasingly under threat since Hong Kong 
returned to Chinese sovereignty in 1997. Prospects that election of the 
territory's chief executive starting in 2017 would be genuinely 
competitive dimmed after Beijing indicated that only candidates who did 
not ``oppose the central government'' would be able to run.
    Hong Kong has witnessed slow erosion of the rule of law in recent 
years, exemplified by increasingly strict police controls on assemblies 
and processions, and arbitrary Immigration Department bans on 
individuals critical of Beijing, such as members of the Falun Gong and 
exiled dissidents from the 1989 democracy spring.

Chinese Foreign Policy
    Despite China's continued rise as a global power and its 2013 
leadership transition, including the appointment of a new foreign 
minister, long-established foreign policy views and practices remained 
relatively unchanged.
    China has become more engaged with various United Nations 
mechanisms but has not significantly improved its compliance with 
international human rights standards or pushed for improved human 
rights protections in other countries. In a notable exception, shortly 
after it was elected to the UN Human Rights Council in November, China 
publicly urged Sri Lanka ``to make efforts to protect and promote human 
rights.''
    Even in the face of the rapidly growing death toll in Syria and 
evidence in August 2013 that the Syrian government used chemical 
weapons against civilians, Beijing has continued to object to any 
significant Security Council measures to increase pressure on the Assad 
regime and abusive rebel groups. It has opposed referral of the 
situation to the International Criminal Court (ICC) and an arms embargo 
against forces that commit widespread human rights or laws of war 
violations. China has also slowed down Security Council-driven efforts 
to deliver desperately needed humanitarian assistance across the border 
to rebel controlled areas in northern Syria.
    In a minor change of tactics, if not of longer-term strategy, 
Chinese authorities have become modestly more vocal in their public and 
private criticisms of North Korea, particularly following actions by 
Pyongyang that increased tensions between members of the six-party 
talks aimed at addressing security concerns posed by North Korea's 
nuclear weapons program.
    Both private and state-owned Chinese firms continue to be a leading 
source of foreign direct investment, particularly in developing 
countries, but in some cases have been unwilling or unable to comply 
with international labor standards.

Key International Actors
    Most governments that have bilateral human rights dialogues with 
the Chinese government, including the United States, European Union, 
and Australia, held at least one round of those dialogues in 2013; most 
acknowledge they are of limited utility for promoting meaningful change 
inside China.
    Several of these governments publicly expressed concern about 
individual cases, such as those of Xu Zhiyong or Liu Hui, or about 
trends such as restrictions on anti-corruption activists. Ambassadors 
from the US and Australia, as well as the EU's special representative 
for human tights, were allowed to visit the TAR or other Tibetan areas.
    None of these governments commented on the denial of Chinese 
people's political rights to choose their leaders during the 2012-2013 
leadership transition, and few successfully integrated human rights 
concerns into meetings with senior Chinese officials.
    China participated in a review of its compliance with the 
Convention on the Rights of Persons with Disabilities by the 
international treaty body charged with monitoring implementation of the 
convention and a review of its overall human rights record at the UN 
Human Rights Council, but it failed to provide basic information or 
provided deeply misleading information on torture, arbitrary detention, 
and restrictions on freedom of expression. There are eight outstanding 
requests to visit China by UN special rapporteurs, and UN agencies 
operating inside China remain tightly restricted, their activities 
closely monitored by the authorities.
                                 ______
                                 

  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
         Chairman, Congressional-Executive Commission on China

                             APRIL 8, 2014

    On February 21, nine Members of this Commission--Democrats and 
Republicans from both the House and the Senate--sent a letter to 
Chinese President Xi Jinping, urging him to end the crackdown on rights 
advocates in China.
    Among the cases we highlighted was that of Uyghur scholar Ilham 
Tohti, and his daughter joins us today. Mr. Tohti is a thoughtful and 
peaceful advocate of the rights of the Uyghur minority, who has sought 
to build bridges among ethnic groups. We are grateful that his daughter 
joined us today.
    We are grateful that the prominent human rights lawyer Teng Biao 
could join us via Skype. Teng Biao has provided legal assistance in 
human rights cases at great risk to himself. Our staff has made every 
effort to ensure the security of this feed and we hope there will be no 
disruption.
    We are grateful, too, that Mr. Clarke and Ms. Richardson could take 
time out of their busy schedules to be here. Ms. Richardson is a 
respected expert on human rights. Mr. Clarke has done considerable 
research into understanding China's legal reform and rule of law 
development.
    This hearing comes at an important time.
    President Xi Jinping has been in power more than a year.
    As we will learn more today, he has presided over a worrisome 
crackdown that is estimated to have swept away more than 150 activists, 
lawyers, journalists, and intellectuals.
    President Xi spoke of respecting the Constitution and rule of law 
when he entered office. He has talked tough on corruption. His 
government has pledged to protect ethnic minorities.
    But when his own citizens, including the father of our witness 
today, sought to hold the Chinese government accountable they were 
punished.
    They include the legal advocate Xu Zhiyong, who has sought to 
promote educational opportunity and transparency of officials' 
finances. He is now serving a four-year sentence for ``disturbing 
social order.''
    They include the activist Cao Shunli, who sought to participate in 
the drafting of China's human rights report to be presented to the UN 
Human Rights Council. She died last month after being detained and 
denied medical treatment.
    They include the four lawyers trying to defend Falun Gong members 
held in illegal detention centers known as black jails. The lawyers 
have been detained and beaten.
    During President Xi's first year in office we have learned that 
independent voices--even those that echo the government's concerns and 
try to uphold the law--will not be tolerated.
    These actions are not befitting a country that every day claims to 
want, and is seeking, in fact, greater international legitimacy.
    We urge the government of the People's Republic of China to respect 
the fundamental rights of every one of its citizens to freedom of 
expression, press, association, and religion.
    We do so not simply because this is China's obligation under 
international law, but because China will be better and stronger if it 
gives its citizens a voice and stake in the system.
    By listening to and respecting the rights of citizens like Ilham 
Tohti and Xu Zhiyong, China can involve all its people in dealing with 
the most important problems of the day--corruption, ethnic tensions, 
income inequality.
    But first, President Xi and China's leaders must view these 
citizens not as threats but as people who want what's best for their 
country.
    I look forward to hearing the witnesses.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                             APRIL 8, 2014

    On the morning of March 14th, Cao Shunli died alone at Beijing 
Military Hospital #309. Chinese police detained her on September 14, 
2013, after she attempted to attend the UN Human Rights Council's 
review of China's human rights record.
    She was officially detained on the bogus charge of ``suspicion of 
illegal assembly'' and ``creating a disturbance.'' During her six month 
detention she was repeatedly denied medical care for serious 
conditions, many which developed in prison.
    China's campaign to discredit Cao Shunli even continued past her 
death. Authorities continue to deny her family the dignity of releasing 
her body for burial. Chinese diplomats in Geneva objected to a planned 
moment of silence at the UN Human Rights Council.
    It is a sad irony that Cao Shunli's pleas for human rights in China 
were finally heard at the UN after her death.
    Cao Shunli is exactly the type of person the Chinese government 
should embrace--not jail, discredit, and leave to die. She was a brave 
advocate for human rights, who had sacrificed much to make her country 
a better place. She wanted a China that fulfilled its highest ideals 
and its promises to advance human rights and protect the poor and 
vulnerable.
    Unfortunately, her case is not an isolated one.
    President Xi Jinping has presided over one of the most extensive 
crackdowns on rights advocates in recent memory. 200 hundred people 
have been arrested in the past year and many more are intimidated into 
silence.
    Chinese authorities are not only arresting rights advocates, they 
are also intimidating and detaining their family members as well--a 
chilling escalation of abuse that is both outrageous and illegal.
    The Congress has repeatedly expressed its concern about health and 
welfare of Chen Kegui , the nephew of Chen Guangcheng and Liu Xia the 
wife of Nobel Prize Laureate, Liu Xiaobo --but many more families 
suffer in silence. We urge the Chinese government to stop its 
harassment and detention of the family members of dissidents.
    We are also concerned about recent efforts to silence the work of 
human rights lawyers. Four lawyers were detained recently in northern 
China for seeking to defend Falun Gong practitioners arbitrarily 
detained in a ``black jail.'' Over the past several years, human rights 
lawyers are often stripped of their legal licenses, beaten by police or 
hired ``thugs,'' and detained--for seeking to provide legal services 
consistent with China's own laws and its international obligations.
    China's human rights lawyers courageously remain committed to the 
rule-of-law, even though, it seems, the Chinese government is not.
    China's active repression of ethnic minority communities has failed 
to bring stability and only created more discontent. It even jails 
those, like the Uyghur Ilham Tohti who seek to bridge the divide 
between their ethnic group and China's majority Han population, 
promoting inter-ethnic dialogue and understanding.
    Expanding police power is not the answer to creating stability in 
restive ethnic minority areas of China. Tibetans, Uyghurs , and 
Mongolians should be given a way to shape policies that affect them and 
preserve and practice, without interference, their unique religions, 
cultures, and languages. Unfortunately, China has worked to silence 
Tohti's voice, and the voice of others, who have actively worked to 
ease inter-ethnic strains. The silencing of these voices is likely to 
further marginalize ethnic communities and worsen the prospects for 
peace and prosperity for Han and Uyghur alike.
    President Xi came to office one year ago promising reforms of 
longstanding policies, including abolishing the re-education through 
labor (RTL) system of arbitrary detention, changing the household 
registration system and ``One-Child'' policy, and expanding efforts to 
stamp out corruption.
    Yet, except for aggressive campaigns to discredit former political 
opponents and silence rights advocates, none of these reforms have 
produced results.
    President Xi promised to create a ``China Dream'' of unlimited 
prosperity and progress, but coupled that with vision with a more 
conservative tone, opposing greater press freedom and ``western-style'' 
rule of law and extending existing curbs on the freedoms of expression, 
association, assembly, and religion. The Chinese government continues 
to prohibit independent labor unions and human rights organizations; 
heavily censors the media, the Internet, and academic research on 
topics deemed too ``political.'' It uses ``social stability'' to 
justify suppression of human rights advocates and repressive policies 
in ethnic minority areas of Tibet, Xinjiang, and Inner Mongolia.
    The China Dream is becoming a nightmare for those peacefully 
advocating for human rights and the rule of law.
    A strong and secure China would welcome independent civil society 
and free press, committed to holding the Chinese government accountable 
to its highest ideals and promises. Instead it criminalizes dissenting 
opinions and uses repression to silence those viewed as challenging its 
authority.
    China must begin to embrace the idea that continued prosperity and 
security can only be ensured when freedom is embraced and human rights 
protected.
    The China Commission has repeatedly urged the Administration to 
raise, in a serious and visible way, the issue of human rights abuses 
in China. That need continues now, more than ever, in the midst of the 
current crackdown on rights defenders.
    But more needs to be done to improve human rights diplomacy with 
China. The Administration has promised an ``Asia Pivot,'' but the human 
rights and democracy pillar of that policy is, by far, the least 
developed part.
    There are pressing economic and security concerns in the Pacific 
that require U.S. leadership, but the hard won truth of history is that 
a future of stability and prosperity is built on the foundation of 
liberty and human rights.
    The United States must find credible ways to advance this principle 
in its relations with China. And, we must find ways to effectively link 
U.S. interests in human rights with its interests in global security 
and freer and fairer trade.
    That is the challenge. We in the Congress, and at the CECC, promise 
to continue work to advance universally-recognized rights and freedoms 
in China.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
